<html>
<title> - DHS COORDINATION OF NUCLEAR DETECTION EFFORTS, PART I & II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
       DHS COORDINATION OF NUCLEAR DETECTION EFFORTS, PART I & II

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                   APRIL 19, 2005 and APRIL 20, 2005

                               __________

                           Serial No. 109-10

                               __________

       Printed for the use of the Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-903                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi, 
Lamar S. Smith, Texas                Ranking Member
Curt Weldon, Pennsylvania, Vice      Loretta Sanchez, California
Chairman                             Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. Defazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island, 
Christopher Shays, Connecticut       Ranking Member
Daniel E. Lungren, California        EdwarD J. Markey, Massachusetts
Jim Gibbons, Nevada                  Norman D. Dicks, Washington
Rob Simmons, Connecticut             Jane Harman, California
Bobby Jindal, Louisiana              Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Christopher Cox, California (Ex      Donna M. Christensen, U.S. Virgin 
Officio)                             Islands
                                     Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................    23
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U. S. Virgin Islands.......................................    67
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    33
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    66
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    36
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    37
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    31
The Honorable Eleanor Holmes Norton, Delegate in Congress From 
  the District of Columbia.......................................    68
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    60
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    59

                             FOR THE RECORD

Prepared Statement of Mr. David M. Abshire, President, Center for 
  the Study of the Presidency....................................    28

                               WITNESSES

Part I, April 19, 2005
Dr. Graham Allison, Director, Belfer Center for Science and 
  International Affairs, Harvard University
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Dr. Fred Ikle, Center for Strategic and International Studies
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Colonel Randy Larsen (Retired USAF), Chief Executive Officer, 
  Homeland Security Associates, LLC
  Oral Statement.................................................    16
  Prepared Statement.............................................    17

Part II, April 20, 2005
Mr. Vayl Oxford, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security
  Oral Statement.................................................    49
  Prepared Statement.............................................    51


         DHS COORDINATION OF NUCLEAR DETECTION EFFORTS, PART 1

                              ----------                              


                        Tuesday, April 19, 2005

                          House of Representatives,
              Subcommittee on Prevention of Nuclear
                             and Biological Attack,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9 a.m., in Room 
210, Cannon House Office Building, Hon. John Linder [chairman 
of the subcommittee] presiding.
    Present: Representatives Linder, Lungren, McCaul, Cox (ex 
officio), Langevin, Markey, Dicks, Harman, Norton, Christensen 
and Thompson (ex officio).
    Mr. Linder. The committee will be in order. We are here for 
a discussion of the Domestic Nuclear Detection Organization, 
soon to be renamed, we hope. Here comes our Ranking Member.
    I would like to welcome our distinguished panel today who, 
it is to be hoped, will help us to better understand how to 
organize the Federal Government to prevent the release of a 
nuclear device in a U.S. city. This was once an unimaginable 
threat, but it is now real, and it is not going to go away. 
Should America need to respond to such attack, the Federal 
Government will have failed the American people.
    The Homeland Security Act of 2002 requires the Department 
of Homeland Security to coordinate the government's efforts to 
identify and develop countermeasures to radiological and 
nuclear terrorist threats. It is obvious, however, that the 
full task of protecting America against nuclear terrorism is 
not just centered on the Department of Homeland Security, but 
rather is shared by several entities including the Departments 
of Defense, Energy, Justice and State. It strikes me that with 
all the efforts in nuclear nonproliferation and 
counterproliferation conducted by the government, it remains 
unclear how these efforts are being coordinated, let alone who 
is in charge.
    These are just a few of the many answers we will seek from 
today's panel of witnesses. Their charge today is to help us 
understand the rules and responsibilities of the principal 
partners and to provide us with any suggestions to better 
mitigate the nuclear threat.
    The President's fiscal year 2006 budget has a request of 
227 million for this program, which was recently placed by 
Secretary Chertoff as a high priority within his office. 
Missions of the new office include detecting and preventing 
attempts to import or use nuclear or radiological materials; 
working with Federal, State and local governments and the 
private sector to coordinate nuclear detection; developing and 
deploying detection equipment at ports of entry, transportation 
routes, critical infrastructure and in urban environments. In 
addition, the Bush administration stated that through this 
office our overseas and domestic programs to defeat nuclear 
terrorism will work together to contribute to the Nation's 
nuclear defense.
    Clearly, protecting the Nation involves a multifaceted 
approach that begins with efforts overseas to reduce the 
inventory of nuclear weapons and material and to prevent them 
from falling into the hands of terrorists, which is in part 
managed by the Department of Defense's Cooperative Threat 
Reduction Program. The Department of Energy also is responsible 
for securing those materials via the Global Threat Reduction 
Initiative. Similarly, nonproliferation efforts are also 
managed by the State Department's Proliferation Security 
Initiative.
    Protecting our borders is another facet of preventing 
nuclear terrorism. Currently overseas efforts to screen cargo 
for nuclear materials are managed by the DOE through its 
MegaPorts program. DHS has also led the effort to place 
radiation monitors at this Nation's most vulnerable points of 
entry.
    Given the intent of terrorists, the accessibility of 
nuclear material, and the unlimited ways in which terrorists 
could smuggle a weapon or nuclear material through America's 
borders, a nuclear terrorist attack is highly conceivable. I 
agree with the January 05 report that stated that the most 
worrisome trend has been an intensified surge by some 
terrorists groups to obtain weapons of mass destruction. I 
intend to see to it that this committee takes this threat very 
seriously. We plan to be vigilant and ensure that the DHS and 
other responsible departments are working constructively toward 
measurable actions to prevent a nuclear incident in the United 
States.
    Ultimately, it will fall on this government to reject the 
usual bureaucratic barriers and turf battles between competing 
Federal agencies in the area of homeland security. If it fails 
on that front, it will, in the end, fail in its primary 
responsibility, which is to protect the people of this country. 
As such, we all owe it to America's public to work together and 
to mitigate this threat as effectively as possible.
    Mr. Linder. I now recognize my Ranking Member Mr. Langevin 
for any statement he would like to make.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to take 
this opportunity to recognize our distinguished witnesses today 
and thank them for being here this morning. In particular, I am 
pleased to see my former professor Dr. Allison at the witness 
table.
    Dr. Allison, welcome. And I look forward to your testimony, 
and I am actually reading your book right now, Nuclear 
Terrorism: The Ultimate Preventable Catastrophe, and I highly 
recommend it to the committee.
    But in this post-9/11 era, preventing terrorist groups 
obtaining a nuclear weapon must be our government's number one 
national security priority. Given the advancement of technology 
and the stated intentions of Al-Qa`ida and like-minded groups, 
the possibility that a terrorist will obtain a nuclear weapon 
is very real, and one that we ignore at our peril.
    This morning's hearing will focus on the Department of 
Homeland Security's latest attempt to address the nuclear 
terrorist threat, proposed Domestic Nuclear Detection Office, 
or DNDO. According to Secretary Chertoff, the DNDO will be the 
primary office of the U.S. Government to develop a global 
nuclear detection architecture including the development and 
deployment of a domestic nuclear detection system. And while I 
applaud Secretary Chertoff for taking this important first 
step, I do have concerns about whether the DNDO as proposed 
will be able to adequately execute its stated missions.
    I look toward hearing the witnesses share their expertise 
on the following issues: Given the fact that DHS's Science and 
Technology Directorate has spent time and effort on nuclear 
detection, what value added will the DNDO bring to the 
Department?
    Second, is the DNDO as proposed an adequate last line of 
defense, and if not, what measures need to be taken to ensure 
they can prevent a nuclear weapon or components from entering 
the country?
    And also, what are the critical areas that the DNDO must 
address immediately to begin the process of mitigating the 
nuclear terrorist threat?
    Now, I agree with Dr. Allison's assessment that nuclear 
terrorism is a preventable catastrophe, but if we continue to 
move at the pace we are moving, we increase the chances that 
our country will not be as secure as it can and must be from 
the deadliest of all potential attacks. And I think today's 
hearing will help us better understand how the DNDO should be 
set up and what its priorities should be, which will be 
important as we move forward with authorizing legislation.
    I must, however, take this opportunity to express my 
disappointment with the pace and process being employed on this 
issue. With the markup on DNDO legislation scheduled for 
tomorrow, I fail to see how we can possibly incorporate good 
ideas and significant concerns that may come out of the hearing 
today or tomorrow, and I think all of the members of this 
subcommittee would be better served by a process that allows 
for meaningful reflection and input on the issues and the 
legislation before us.
    But again, I do want to thank all of our witnesses this 
morning, and I look forward to your testimony. Thank you Mr. 
Chairman. I yield back.
    Mr. Linder. Thank you, Mr. Langevin.
    The Chair now recognizes the gentleman from California, the 
Chair of the full committee, for a comment.
    Mr. Cox. Thank you, Mr. Chairman.
    I want to welcome our distinguished panel of witnesses. 
This is a very timely and important hearing. I join you, Mr. 
Chairman, in welcoming three men who are going to help us 
understand better not only the threat of nuclear terrorism, 
but, more importantly for the purposes of today's hearing, the 
way in which the Department of Homeland Security should 
organize itself to address this threat.
    Preventing terrorists from ever gaining the capability to 
detonate a nuclear weapon is of utmost importance to our 
Nation. The use of a nuclear device by terrorists is something 
that this committee and our country can never accept. The 
Homeland Security Act of 2002 requires the Department of 
Homeland Security to lead the United States Government's 
efforts to develop countermeasures to terrorist nuclear 
threats. The Department and our government have made progress 
in this area since 2002, but coordinating these efforts across 
the country and around the globe remains a significant 
challenge.
    In his fiscal year 2006 budget, President Bush has proposed 
the creation of a Domestic Nuclear Detection Office within the 
Department of Homeland Security. And last week Secretary 
Chertoff notified me and this committee that he intends to 
establish such an office with the Director reporting directly 
to him. The President's 2006 budget has set aside nearly a 
quarter billion dollars for this proposed office. By design it 
would coordinate U.S. efforts to prevent terrorist 
organizations from smuggling nuclear materials for a nuclear 
weapon into our country.
    It is clear that effectively protecting our Nation from a 
terrorist nuclear threat requires not only domestic detection 
efforts, but, indeed, global coordination, and one of the 
questions that I hope we can address at today's hearing is 
whether the proper focus of the Department of Homeland Security 
is on a Domestic Nuclear Detection Office focused on the 
deployment of technology in our country, or rather, whether 
such deployment should be part of an overall global effort that 
is focused on arresting the development of these terrorist 
capabilities as far overseas as is possible.
    Mr. Chairman, again, thank you for convening this hearing, 
and I look forward to the testimony of our witnesses.
    Mr. Linder. I thank the gentleman.
    Does the gentleman from Mississippi seek to make a 
statement?
    Mr. Thompson. Yes
    Mr. Linder. Okay.
    Mr. Thompson. Thank you, Mr. Chairman. And I would like to 
welcome our panel of distinguished witnesses for this hearing 
this morning.
    Preventing terrorists from obtaining nuclear weapons should 
be a priority for our Nation and for our government, a priority 
that cannot be ignored or put off until tomorrow. If we are to 
deal with the threat of nuclear terrorism properly, our Nation 
needs a layered defense. That first layer requires securing 
weapons-grade nuclear material at the source, and the second 
requires that adequate detection systems and response protocols 
are in place.
    Unfortunately, the Bush administration has not taken this 
threat seriously enough and is not aggressive enough in 
implementing either line of defense. Today we will look at the 
administration's latest proposal on that front to create a 
Domestic Nuclear Detection Office within the Department of 
Homeland Security.
    I would like to hear from the panel of witnesses on this 
proposal. Specifically, I am interested in the answers to the 
following questions: Will the proposed DNDO, as it is called, 
have the resources and capabilities to protect our Nation 
against nuclear terrorism? What should be the level of 
involvement of other Federal agencies in the DNDO? Does the 
proposal provide for that involvement? Is the Information 
Analysis Directorate robust enough to provide DNDO with the 
intelligence support it needs? I have my doubts. But I hope you 
can shed light on this also. What measures can be taken at our 
ports and border crossings to deter terrorists from bringing in 
nuclear weapons?
    In closing, I must say that I agree with your assessment, 
Dr. Allison, that the threat of nuclear terrorism is a 
challenge to our will and conviction, not our capabilities. In 
addition to that, I want you to also speak on whether or not 
the private sector is being utilized to its fullest advantage 
in helping us deal with that. I have talked to different 
members of the private sector, and they would love to 
participate more, but I would love to hear from your testimony. 
We must move with a great sense of urgency to make our country 
more secure from the gravest of all threats facing our country.
    I yield back.
    Mr. Linder. Thank the gentleman.
    In keeping with the rules of our full committee, if any 
other member seeks to make a statement, they may do so in 
writing. We will make it part of the record.
    We turn now to our witnesses in the first panel. Dr. Graham 
Allison is the director of the Belfer Center for Science and 
International Affairs at Harvard University. In the first term 
of the Clinton administration, Dr. Allison served as Assistant 
Secretary of Defense for Policy and Plans, where he coordinated 
DOD strategy and policy toward Russia, Ukraine and other states 
of the former Soviet Union.
    Dr. Fred Ikle is a distinguished scholar at the Center For 
Security and International Studies. Dr. Ikle was formerly the 
Under Secretary of Defense for Policy during the Reagan 
administration. He recently served on the Defense Science 
Board's Task Force on Preventing and Defending Against a 
Clandestine Nuclear Attack.
    Colonel Randy Larsen is the CEO of Homeland Security 
Associates. Colonel Larsen previously served as the founding 
director of the Institute For Homeland Security and the 
chairman of the Department of Military Strategy and Operations 
at the National War College.
    Welcome, all.
    Dr. Allison, you may begin.

   STATEMENT OF GRAHAM ALLISON, DIRECTOR, BELFER CENTER FOR 
     SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD UNIVERSITY

    Mr. Allison. Thank you very much. It is a great honor to be 
here.
    Mr. Linder. Is your microphone turned on?
    Mr. Allison. Sorry. Is that better?
    I brought a short written statement, just one page. If they 
could--did you hand it around to the Members, please, sir? I 
gave it to the staffer here. You did? Yes. Okay.
    Just three questions as a way of getting started.
    I appear here as an individual, not on behalf of any 
organization that I have been associated with in the past or 
currently, and I commend the committee for your seriousness 
about addressing this issue.
    I would say as a way of just being brief about it that 
there are three core questions, and I try to identify them 
here. First, were President Bush and Senator Kerry right when 
they answered the question in the first of the Presidential 
debates, what is the single most serious threat to American 
national security? They both said nuclear terrorism, and I 
believe they both got it exactly right. Vice President Cheney 
actually picked up this theme as a centerpiece of his stump 
speech in the last month of the campaign. And here is what he 
said, stumping around Ohio, the State from which my wife comes. 
He said, quote, the biggest threat we face now as a Nation is 
the possibility of terrorists ending up in the middle of one or 
our cities with deadlier weapons than have ever been used 
against us before, capable of threatening the lives of hundreds 
of thousands of Americans. And then here is the punchline. That 
is the ultimate threat. For us to have a strategy that is 
capable of defeating that threat, you have got to get your mind 
around that concept, close quote.
    So I would say the place to start with respect to this 
subject is the Vice President's good suggestion that to have a 
strategy for defeating it, you have got to get your mind around 
the concept. And the place I suggest to start is by thinking 
about a nuclear bomb going off in one of our cities. And I gave 
you, just for fun, a little target chart that comes from the 
Website that is associated with this book on nuclear terrorism 
that I have published. It is called nuclearterrorism.org. You 
can put your Zip code into it and see what the bomb that Dragon 
Fire warned was in New York City just a month after 9/11 would 
do in your own neighborhood.
    Did all the Members get copies? Congressman Cox, have you 
got them? Okay. Great.
    You all are familiar with this, but I think the point is 
that it seems so abstract that one ought to think about it 
actually occurring and ask what it is we wish we would have 
done previously. And if it were to occur for the absence of 
something that we could credibly have done, you know, what 
excuse are we going to offer?
    So I would say that is actually the right place to start, 
and what I try to do in this book on nuclear terrorism is help 
us as ordinary thinking citizens get our minds around this 
concept in order to have a strategy, a strategy that will 
ultimately, I think, be successful if we pursue it to the point 
of reducing the likelihood of such a disaster to nearly zero. 
So that is point one.
    Point two. In a serious strategy to prevent nuclear 
terrorism, where is the point of the greatest leverage? And a 
number of you have already spoken to this point in your initial 
statements and in your previous hearings. The point of greatest 
leverage strategically is to lock down and eliminate weapons 
and materials at the source. As Senator Nunn rightly says, that 
is the place where it is hardest for the terrorists and easiest 
for us. Every mile you get away from the source, it gets easier 
for the terrorists and harder for us.
    In this nuclear terrorism book, I quote former Senate 
leader Howard Baker, whom I served with on the Baker-Cutler 
Task Force that issued a report in the end of 2000, beginning 
of 2001. And Senator Baker, who was not previously associated 
with this issue, chaired this committee and visited Russia and 
the former Soviet Union on several occasions, and he testified 
to the Senate Foreign Relations Committee, quote, it really 
boggles my mind that there could be 40,000 nuclear weapons, or 
maybe even more, in the former Soviet Union poorly controlled 
and poorly stored, and that the world isn't in a near state of 
hysteria about this danger, close quote. This is on page 9 of 
the book.
    Now, Senator Baker is not a hysterical person, you can be 
sure, but looking at the facts, he says, rightly in my view, 
well, here we are now, as I report in the book, this is now as 
of the end of the first term of the Bush administration, 13 
years after the end of the former Soviet Union, 12 years into 
Nunn-Lugar, where do we stand in terms of performance? And on 
Page 147 I say, and this is from DOE evidence, we are less than 
half the job done of securing weapons and material at the 
source in the former Soviet Union, quote, leaving 44,000 
potential nuclear weapons' worth of highly enriched uranium and 
plutonium vulnerable to theft, so less than half the way done 
at this point.
    I would say, as several of the Members have suggested, that 
is an unacceptable outcome, and that, in terms of a strategy, 
we should look at all the points of leverage, and the point of 
greatest leverage is locking down at the source.
    Point three, where does the specific topic here today rank? 
And the question of improving technological capabilities for 
detection and identification of the source of nuclear weapons 
or fissile material, where does that rank in a multilayered, 
360-degree strategy for preventing nuclear terrorism?
    I myself am a very conservative person. I believe that as a 
country we should have a very conservative posture with respect 
to defense. We should have all layers that we can appropriately 
buy, and all azimuths, all degrees in which we are protecting 
ourselves.
    So while I do not believe that detection and identification 
ranks anywhere close to importance in terms of locking down and 
securing and eliminating and preventing production of nukes, so 
in an overall strategy this is a level three topic rather than 
a level one, I would say that it is an important topic, a very 
important topic.
    And if I could just make one final point. Between 
identification of a bomb or the radioactive debris that emerge 
or that remain after a bomb on the one hand, and on the other, 
detecting radioactive material that may be coming into the 
country, the first nuclear forensic, as it is called, that 
allows one to appropriately attribute to the source the source 
of a bomb that went off in one of our cities seems to me to be 
again, in terms of relative importance as the question was 
asked, much more important. And this becomes vitally important 
today as we think about the story of North Korea.
    If North Korea sells plutonium, which it is currently 
making, to bin Laden, and bin Laden brings plutonium to 
Washington, and a nuclear bomb destroys the Capitol, we need to 
know for sure what was the source of that material. And we 
should now, I believe, be adopting a very aggressive deterrent 
strategy with respect to that, in effect saying what John 
Kennedy said during the Cuban missile crisis, which is it would 
be the policy of our government to regard a bomb that explodes 
on our territory as if it were launched by the party, 
particularly North Korea, that was the originator of the 
material, and that we would respond with a full retaliatory 
effort.
    So I think this is a very important topic, and I think this 
organization that is being stood up is a very important piece 
of this. But I am trying to put it in a larger context.
    Mr. Linder. Thank you, Dr. Allison.
    [The statement of Mr. Allison follows:]

  Prepared Statement of Dr. Graham Allison, Director, Belfer Center, 
         Science and International Affairs, Harvard University

                       House of Representatives*

    The Domestic Nuclear Detection Office
    1. Were President Bush and Senator Kerry correct during the first 
presidential debate of last fall's campaign when they answered the 
moderator's question ``what is the single most serious threat?'' Both 
answered: nuclear terrorism. They answered correctly.
---------------------------------------------------------------------------
    * Graham Allison is Director of the Belfer Center for Science and 
International Affairs at Harvard University. He served as Special 
Advisor to the Secretary of Defense under President Reagan and as 
Assistant Secretary of Defense under President Clinton.
---------------------------------------------------------------------------
    2. In a serious strategy to prevent nuclear terrorism, where is the 
point of greatest leverage? Answer: locking down and eliminating 
weapons and materials at the source. In Senator Sam Nunn's felicitous 
formulation, ``Acquiring weapons and materials is the hardest step for 
terrorists to take, and the easiest for us to stop. By contrast, every 
subsequent step in the process is easier for the terrorists to take, 
and harder for us to stop.''
    3. Where does improved technological capability for detection and 
identification of the source of nuclear weapons or fissile material 
rank in a multi-layered, 360 degree strategy for preventing nuclear 
terrorism? Answer: while not the most important, nonetheless an 
important layer in any serious multi-layered defense.

               TECHNOLOGY FOR NUCLEAR ACCOUNTABILITY \1\

                             Graham Allison

    Scenario 1: If North Korea launched a nuclear-armed missile that 
devastated an American city, how would the U.S. government respond? The 
state-sponsored attack would fit within the Cold War paradigm. The 
certain American response would be an overwhelming retaliation aimed at 
destroying Pyongyang, Kim Jong Il's known nuclear and missile programs, 
and North Korea's million-man army. Such a response would result in 
enormous collateral damage killing millions of North Koreans. Despite 
reservations about the morality of such a response, Cold War nuclear 
doctrine recognized--and accepted--unintended deaths of innocents. 
Whomever occupied the White House during such a nuclear attack would 
understand this also.
---------------------------------------------------------------------------
    \1\ Draft article pending publication in Technology Review--not for 
circulation.
---------------------------------------------------------------------------
    Scenario 2: If North Korea were discovered to have wittingly sold a 
nuclear bomb to Al-Qa`ida, who smuggled the weapon undetected to 
destroy an American city, how would the U.S. government respond? 
Through the prism of a post-nuclear 9/11, if such a redline were 
crossed today, the U.S. government would launch an overwhelming 
response against North Korea.
    Scenario 3: Now imagine a nightmare in which a nuclear bomb is 
smuggled into the U.S. by an unknown terrorist group and detonated in 
Manhattan or Los Angeles killing hundreds of thousands of Americans, 
but the U.S. government is uncertain where the bomb came from and who 
delivered it.
    The logic of deterrence requires a deterrer and an identified 
deterree. In Henry Kissinger's formula: ``Deterrence requires a 
combination of power, the will to use it, and the assessment of these 
by the potential aggressor. Moreover, deterrence is the product of 
those factors and not the sum. If any one of them is zero deterrence 
fails.'' An adversary with no known return address might calculate it 
could escape retaliation. In Scenario 3, as an American city lies 
smoldering, if Osama bin Laden announced that he had ordered the 
action, how would the U.S. respond? If the American government knew 
where bin Laden was, it would already be there.
    The terrorist nuclear weapon that destroyed an American city, or 
the material from which the bomb was made, would almost certainly have 
originated in a state. Fortunately, producing highly-enriched uranium 
or plutonium--the essential ingredients of a nuclear bomb--requires a 
multi-billion dollar, multi-year undertaking beyond the capability of 
non-state terrorists. After a nuclear 9/11, the U.S. government will be 
eager to exact swift vengeance. But against whom? It must first 
determine who was responsible for the attack. Did a state make and 
deliver the bomb, or willingly sell it to terrorists who did? The 
weapon could have been stolen from someone who had no intention of 
losing. Indeed, the material could conceivably have come from American 
stockpiles. In the first instance, identification would provide a 
bulls-eye for overwhelming retaliation. In the second, the certainty 
that the weapon was stolen from a Russian or Pakistani arsenal would 
generate a demand for the immediate global lock-down of all nuclear 
weapons and materials.
    The technological prerequisite for rethinking today's unthinkable 
is nuclear forensics: the ability to identify the bomb's source from 
radioactive debris left after an explosion. Building on Cold War 
techniques, the Pentagon has developed new methods to collect samples 
from ground zero of a blast, measure such data as isotopic ratios and 
the efficiency of the fuel burn in the detonation, and compare that 
information to known nuclear databases to determine the origin of the 
materials involved in the attack.
    Much is already known about foreign nuclear materials, collected 
from Cold War military tests, commercial transactions, scientific 
exchanges, and covert means. But recent allegations about the uranium 
hexafluoride Libya turned over when it renounced its nuclear weapons 
program illustrate gaps in our knowledge. The U.S. intelligence 
community believes that North Korea was the source. But according to 
informed press reports, they reached that determination by the process 
of elimination--not identifying the uranium directly, but rather ruling 
out other known sources.
    The goal of the robust nuclear forensics capability we need must be 
to identify nuclear material definitively and quickly. The National 
Research Council's 2002 study, Making the Nation Safer: The Role of 
Science and Technology in Countering Terrorism, concluded that: ``The 
technology for developing [post-explosion nuclear attribution] exists 
but needs to be assembled, an effort that is expected to take several 
years.'' Establishing this capability should be a top American 
priority, since effective deterrence requires convincing potential 
perps that the U.S. will be able to identify the culprit.
    Graham Allison, director of Harvard's Belfer Center for Science and 
International Affairs, is the author of Nuclear Terrorism: The Ultimate 
Preventable Catastrophe. For more information go to 
www.nuclearterrorism.org.

A New York Times Notable Book of the Year and a Foreign Affairs 
Bestseller

                           Nuclear Terrorism:

                  The Ultimate Preventable Catastrophe

                             Graham Allison

    The central but largely unrecognized truth is that nuclear 
terrorism is preventable. As a fact of physics: no highly enriched 
uranium and plutonium, no fission nuclear explosion, no nuclear 
terrorism. It is that simple. While vast, the amount of fissile 
material is finite (and the challenge of producing more too difficult 
for anyone but states). Technologies for locking up dangerous material 
are well developed. The choke point in preventing nuclear terrorism is 
thus denying terrorists access to nuclear weapons and weapons-usable 
material at the source.
    The agenda to achieve this objective is ambitious yet feasible. A 
serious campaign to prevent nuclear terrorism should apply a doctrine 
of Three Nos: No Loose Nukes, No New Nascent Nukes and No New Nuclear 
Weapons States.
        <bullet> No Loose Nukes: requires securing all nuclear weapons 
        and weapons-usable material, on the fastest possible timetable, 
        to a new ``gold standard''. The U.S. and Russia should develop 
        this standard jointly, act immediately to secure their own 
        materials, and call on the leaders of other states to do the 
        same. All states that possess weapons-usable nuclear materials, 
        even non-nuclear weapon states, must be included in an 
        international coalition to guarantee the security of such 
        materials from theft by terrorists or criminals groups. Nuclear 
        Terrorism presents a plan for a Global Alliance Against Nuclear 
        Terrorism to achieve this goal.
        <bullet> No New Nascent Nukes: requires no new national 
        capabilities to enrich uranium or reprocess plutonium. This 
        effort should begin with intrusive inspections of suspected 
        nuclear sites as required by the Non- Proliferation Treaty's 
        Additional Protocol. But two other elements must be added: a 
        prohibition on the production of fissile material and actual 
        enforcement mechanisms. Iran today poses a crucial test to this 
        principle. Nuclear Terrorism outlines a strategy for persuading 
        Iran to stop now.
        <bullet> No New Nuclear Weapons States: draws a line under the 
        current eight nuclear powers and says unambiguously: ``No 
        more.'' The test case for this principle is North Korea. 
        Nuclear Terrorism outlines a strategy for freezing North 
        Korea's nuclear activity and backing it down step by step.
        [GRAPHIC] [TIFF OMITTED] T2903.001
        

    Mr. Linder. Dr. Ikle.

STATEMENT OF FRED IKLE, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. Ikle. Thank you, Mr. Chairman. The DNDO organization--.
    Mr. Linder. Is your microphone turned on? Thank you.
    Mr. Ikle. The DNDO is a great step forward in pulling an 
organization together with all the relevant departments and 
agencies. It awaits a new venture in government organization 
because DNDO will have to depend on the collaboration of 
independent, quite independent, departments, agencies and their 
recourse to get full cooperation essentially with the 
President. They don't have power to order DOD or FBI people 
around. So the support by this committee for the discipline in 
this organization and collaboration will be essential.
    The prevention of this kind of disastrous attack of nuclear 
terrorism, of course, also has to depend on the contributions 
of defense, like in the Proliferation Security Initiative, PSI, 
or like in the activities by the Special Forces to support, 
depend on the contribution of the FBI and so forth. So to pull 
this together makes a great deal of sense.
    Important also that--and this you may want to consider in 
your follow-up legislation--that tests and exercises be 
conducted and reported back to this committee so you know 
whether the work has really been done in the field, not just 
discussions in interagency meetings.
    To put this organization together took about 9 months, 
which is--in peacetime may be appropriate, but if we feel we 
are in an emergency, it seems to be a long time. And we don't 
want to lose another 9 months before we get going with 
practical work in the field.
    Now, how do we know that a terrorist group or a country is 
preparing to introduce a nuclear device on U.S. territory, or 
for that matter on a U.S. base abroad? As Graham Allison 
rightly points out, the first line of defense is as close to 
the source of nuclear material as you can get, and that has to 
be worked on more vigorously. But we have seen many setbacks in 
our nonproliferation effort, and we have to be prepared for 
other setbacks, and that is where this kind of a last line 
interference comes in that DNDO is focused on.
    The structure of DNDO provides for good links with the 
National Director of Intelligence, with the Intelligence 
Community, and that is the way it should be. And DNDO is not an 
intelligence organization, with one very important exception. 
DNDO is the only organization that, according to its charter, 
promises to focus on the development of more advanced 
transformational, as they call it, detection equipment.
    Department of Energy in theory can do that and has done 
some work on that. But--and some work has been done in 
Department of Defense Advanced Technology Office. But there has 
been no sufficiently coordinated vigorous effort, and if that 
is not done, then DNDO cannot help the Department of Defense, 
with their Special Forces looking for nuclear weapons, give 
them more advanced equipment so they can find it in the Afghan 
mountains. It cannot help the Coast Guard to do a better work 
on detecting these things in containers.
    The text of the draft, the DNDO charter, puts a great deal 
of emphasis properly on this transformational research. What I 
am worried about is the execution of it. This is a peculiar 
type of research, unlike the work that has been done, in part 
sponsored by the Homeland Security Committee chaired by 
Chairman Cox, and by the subcommittee here in the biological 
weapons area, where good work has been done in the 
pharmaceutical industry and NIH and the Centers For Disease 
Control and the private sector. The private sector has been 
mentioned by Mr. Thompson.
    That is possible in the field of biological weapons where 
there is a seamless connection between health care, health work 
on pharmaceuticals and biological protection. In the nuclear 
detection field you deal with essentially two elements, 
plutonium and uranium, and the way these can be put to weapons. 
And the only really competent organizations to advance our 
capability for detection are our laboratories, Livermore, Los 
Alamos, Sandia and so on. And what we need to do is to pull 
these laboratories together like we did for the Manhattan 
Project initially, like we did in a different context pull 
these things for the Apollo Project, with one manager that can 
run it with a flexible budget, can attract the best people.
    It is sad to report, but the number of the best scientists 
in the laboratories that could have worked on the detection 
equipment have left because of funding that dribbled in was so 
constrained, so limited, the encouragement they got was not 
adequate. We want to get the best scientists to work so that we 
can help out way out on the front line as well as in the last 
defense line to detect these things. If you cannot fund them, 
there is nothing you can do about it. And there are promising 
ideas, but they are lying fallow because they have not been 
properly funded and managed.
    Now, I don't know whether this hearing is the time to go 
into full detail on this in the budget that is required. It 
probably could start at 100 million, but for the other work 
there is a quarter billion set aside, and the rest of the DNDO 
activity will require money as well to work with the present 
instrumentation to set up the architecture abroad and at home.
    So eventually a larger budget and a long-term budget will 
be needed. And in my view, a manager has to be found who should 
report preferably to the Homeland--to the Secretary of the 
Homeland Security Department, not to a lower tier in the DNDO 
organization.
    We have gone through this effort for a long time. The 
Defense Department and the Defense Science Board study, 8 years 
ago, that argued we should do this research, nothing was done. 
There was a follow-on study in 1981. Nothing was done. Finally, 
the Defense Science Board did another study, and you have the 
report; chaired by Dr. Wagner, has met with the members of your 
committee. And that is an excellent charter for this. But 
Richard Wagner and I have been going around the organization, 
departments and agencies and trying to stimulate the research, 
so far without much luck and success. So in a way you are the 
last line of the offense to get this going, Mr. Chairman.
    I will be pleased to elaborate further on the 
organizational details which are very important for this key 
piece of R&D activity for all departments, not only Homeland 
Security
    Mr. Linder. Thank you, Dr. Ikle.
    [The statement of Mr. Ikle follows:]

 Prepared Statement of the Honorable Fed C. Ikle, Center for Strategic 
                       and International Studies

                       House of Representatives*

The Domestic Nuclear Detection Office
    Thank you, Mr. Chairman, for inviting me to address the Domestic 
Nuclear Detection Office. This new organization, located within the 
Homeland Security Department, has been proposed in the President's 
budget request for fiscal year 2006.
---------------------------------------------------------------------------
    * Fred C. Ikle is a Distinguished Scholar at the Center for 
Strategic and International Studies, Washington, D.C. He was 
Undersecretary of Defense for Policy in the Reagan Administration.
---------------------------------------------------------------------------
    DNDO properly has the word ``detection'' in its name. It is focused 
on the last line of defense to protect the United States from a 
terrorist use of nuclear weapons that is directed against our national 
territory. The possibility of a clandestine use of a nuclear weapon 
against our homeland is not a new idea; it has been mentioned since the 
beginning of the nuclear age. But as a serious threat it has emerged 
only during the last decade or so, and in particular since 9/11.
    It is the global proliferation of nuclear weapons technology that 
has made this threat increasingly serious. And since the break-up of 
the Soviet Union we have faced a growing danger that nuclear bombs and 
materials might be acquired by terrorist organization. The initial US 
response has been the Nunn-Lugar program which has now been 
restructured as the Cooperative Threat Reduction program. These 
efforts, and other measures to curb nuclear proliferation, have 
accomplished a great deal. But none could give full assurance against a 
clandestine delivery of a nuclear bomb for a terrorist attack.
    The seriousness of this cataclysmic possibility has become 
increasingly apparent. Hence, the need for a last-line of defense--the 
mission of DNDO. Defense experts have proposed better detection 
measures for some time. Already in 1997, the Defense Science Board 
spelled out the need for a serious R&D program to improve our technical 
detection capabilities. Unfortunately, there was no follow-up; and now, 
eight years later we are still unprepared. The establishment of DNDO is 
a statement of good intentions, but without vigorous follow-up, 
competent management, and--Mr. Chairman--strong Congressional support, 
I fear we will encounter more delays.
    DNDO is a unique organization with few parallels. I cannot think of 
another executive branch organization that seeks to pull together so 
many government departments and agencies in a cooperative effort for so 
complex a mission. Keep in mind that the cooperation required will be 
essentially voluntary. Short of an appeal to the President, the person 
who will head DNDO cannot order the other components to carry out their 
tasks.
    Such an endeavor has to overcome several hurdles. It can 
deteriorate into an endless series of interagency meetings. Differences 
about priorities might not be resolved. Budget requests might be 
delayed. The most competent people might become discouraged and move on 
to more promising jobs.
    All these setbacks have already been experienced during the 
Administration's deliberations that led up to DNDO. I mentioned the 
1997 Defense Science Board study which lacked follow up. Four years 
ago, a new Task Force of the Defense Science Board addressed the 
problem of clandestine nuclear attack again. Chaired by Dr. Wagner, 
this Task Force prepared a thorough guide for the actions that ought to 
be taken. During the last couple of years, the findings of this report 
were briefed to all departments and agencies that have some 
responsibility in this area. The bureaucratic obstructions were 
appalling. Bureaucrats called for more grand studies, more interagency 
meetings, and some even argued that better detection instruments were 
impossible since our technology for radiation sensors had reached the 
limits of physics.
---------------------------------------------------------------------------
    Report of the Defense Science Board Task Force on Preventing and 
Defending Against Clandestine Nuclear Attack (June 2004).
---------------------------------------------------------------------------
    After all these attempts to get a serious effort underway, it is 
fortunate that we have now a well thought-out organizational structure 
set down in DNDO's charter. With the President's endorsement, and with 
the full backing and monitoring by Congress, we might--at last--
succeed.
    Now let me turn to a major part of the DNDO structure which, for 
the long term, is the most important part: the R&D program for the 
``transformational'' development of sensors and other essential 
technology. Without better instruments to detect smuggled nuclear 
weapons, all the operational DNDO components will be unable to do their 
job. Without Better knowledge and techniques to identify the source of 
the smuggled nuclear weapon, the deterrent effect of our defenses will 
be greatly diminished. Indeed, these techniques of identification--
called ``forensics''--are crucial to avert a mistaken retaliatory 
strike that would get the United States into a war with a nation that 
did neither attack us, nor lend any support to the terrorists who 
attacked us.
    Better sensors and forensics are the heart of the matter. And the 
inter-agency effort that produced the proposed structure for DNDO is 
very clear on this. Yet, the way in which it describes the management 
of this ``transformational'' R&D will not get the job done. It says:
        ``Nuclear detection R&D will be coordinated via interagency 
        representation on the DNDO R&D Coordinating Council with budget 
        authority remaining in departments/agencies.''
    This approach will at best produce fractured and fragmented 
research efforts, greatly slowed down by innumerable interagency 
meetings.
    Chairman Linder, you Subcommittee is concerned both with nuclear 
and biological attack. To limit the impact of biological attacks, great 
scientific progress has been made with vaccines and other medical 
interventions. And much of this research was done in different research 
centers, at universities, and by the pharmaceutical industry. This was 
appropriate given the multifaceted nature of biological threats and the 
seamless connection between health care and biological warfare defense.
    But for nuclear sensors and forensics, the scientific research on 
will not succeed with small research grants, parceled out hither and 
yon to every applying think tank or university. These sensors and 
forensics deal with two elements: plutonium and enriched uranium, not 
with dozen of diseases. And they must be focused on the ways either or 
both of these elements can be used to cause a nuclear detonation. Only 
the government weapons laboratories have the experience, the classified 
data, and sixty years of historic knowledge to work effectively on this 
problem.
    The management of ``transformational'' R&D effort must be inspired 
by the way we managed the Manhattan Project or the Apollo Project. 
These successful programs were not run by endless interagency meetings 
in Washington that presided over budget constraints and bureaucratic 
deadlines for dozens of little contracts. Last summer, the Homeland 
Security Department's research sponsorship on nuclear sensors was done 
through 135 contracts--one hundred and thirty five! (Some of these, to 
be sure, produced useful results.)
    The country needs a superbly qualified single manager for this work 
(as was the case for the Manhattan Project), a generous long term 
budget with flexibility, all to support an integrated team effort 
bringing together the professional strengths and the scientific assets 
of Livermore, Los Alamos, Sandia, Oak Ridge, Argonne, and reaching out 
to specialists at universities and support for prototype production by 
industry.
    This Laboratory-centered program, of course, needs to be in 
continuing contact with the many potential users of the sensors. (The 
use of the forensic capacity must remain centralized for the US 
government.) The physicists at the laboratory will have to tailor their 
effort to the needs of the Coast Guard, border control, DOD's Special 
Forces, the Navy's work for the Proliferation Security Initiative 
(PSI), special needs of the FBI and CIA, and so on.
    Your Subcommittee, Chairman Linder, will have to play a strong 
supportive and guiding role to ensure success for the 
``transformational'' R&D envisaged by the DNDO proposal. Without much 
better sensors and forensics, DNDO cannot succeed, it will just remain 
a bureaucratic artifact. This is why I put so much stress on a 
laboratory-centered R&D program, run by a manager in the style of the 
Apollo or Manhattan Project. To this end, the legal, administrative and 
budgetary details still have to be worked out, a job that your able 
staff (in cooperation perhaps with OMB could accomplish in a couple of 
days.
    To sum it up, the Domestic Nuclear DETECTION Office is a great step 
forward in America's struggle against nuclear terrorism. But without an 
``Apollo Project'' on sensors, there won't be much hope for detection 
and DNDO will become the Domestic Nuclear DISCUSSION Office.
    Forgive me, Mr. Chairman, for pressing this point so hard. 
Witnessing ten years of fumbled and failed effort have diminished my 
sense of patience, a little.

    Mr. Linder. Colonel Larsen.
    Colonel Larsen, may I say that Dr. Allison must walk out 
the door at 10:30 to catch a plane. 10:45. Okay.

   STATEMENT OF RANDY LARSEN (RETIRED USAF), CHIEF EXECUTIVE 
           OFFICER, HOMELAND SECURITY ASSOCIATES, LLC

    Colonel Larsen. I will make my remarks short. I seem to 
have the same problems with that, as I hear many of the 
Members, the word ``domestic.'' Prior to 9/11, intelligence 
worked outside our borders, and the FBI primarily worked 
inside, and that doesn't seem to apply so much anymore. We see 
a change there.
    I worry about this office when everything I know about 
trying to prevent a nuclear terrorist attack on an American 
city, the majority of that activity is going take place outside 
our borders. So I am concerned about that word ``domestic,'' 
and I think the global perspective a far better one there.
    My other great concern that I see here is the problem with 
who is in charge. We have heard many different places 
mentioned. Now, you know, if you want to have a hearing on 
missile defense here, you could basically call two people, one 
of them appointed by the Secretary of Defense that manages the 
program, one appointed by the President and confirmed by the 
Senate, an under secretary that manages a $7.7 million budget. 
Two people here.
    If you wanted to have a hearing about who was protecting us 
from biological weapons, there are 26 Presidentially-appointed, 
Senate-confirmed individuals, and none of them has it for a 
full-time job, and they work in 12 different agencies. No one 
is in charge. And I would say that it is somewhat similar for 
who is in charge of defending us from a nuclear attack. And now 
we are adding two new offices to that already long list that 
you would have to call up here, Secretaries of Energy, Defense, 
all that you mentioned, Mr. Chairman. Now we are going to add 
DNDO. And the intelligence reform bill says we are going to 
create this new office within 18 months, unless the President 
says he doesn't want it, called the National 
Counterproliferation Center. I actually like the charter of 
that a little bit better, I think, even though it is going to 
be under the DNI. I like that charter a little bit better maybe 
than this Nuclear Detection Office that is inside DHS.
    I am not saying that I am against detection. I am all for 
it. I am probably the only person in the room that carries a 
detector with them. I have one. You know, you can buy these for 
under 100 bucks. The problem is this will not detect a nuclear 
weapon. If you had a nuclear weapon, if you had a Mark 15 
sitting up there in front of you, this won't go off. It won't 
even go off for a dirty bomb. But it will go--if a nuclear 
explosion goes off at the other side of the Pentagon, you know, 
then this would. It takes a really hot thing.
    So detection capabilities is--it can be cheaper, it can be 
extremely expensive. The problem that we all have that we 
discussed at Wye River is what is that next generation? How 
good will it really be?
    The third thing that is important to me is where we would 
put the detectors. So let us say we go--and Mr. Ikle sure knows 
a lot more about detectors than I do, and he is the person you 
should ask those technical questions to. But I am the 
strategist guy. I am the guy that thinks about the bad guy all 
the time.
    So where would I want to deploy these really good 
detectors? Maybe not on our borders. Maybe it should be where 
Dr. Allison says. Most of that stuff is stored in the Soviet 
Union. When it leaves there--you know, this is kind of like 
remember in the Vietnam War we used to have million-dollar 
airplanes bombing $300 trucks on the Ho Chi Minh trail? It 
would have been simpler to bomb those trucks up at Hanoi before 
they left the depots.
    So I am more concerned about where that material would come 
from is where I might want to put my detectors, because we 
have--I mean, well, let us face it. If you had an arsenal of 
three nuclear weapons, and you are a terrorist organization, 
are you just going to put it in a shipping container and say, 
hey, send it to Chicago? You know, I would put it inside a 
Gulfstream and fly it across into the United States. I would 
put it in a ship. You know, open press says Al-Qa`ida may have 
up to 80 ships. I would put it in a ship and drive it into a 
port. It would never get to your detector you got there in your 
screening place. You know, set it off in Long Beach or Los 
Angeles. Or I would set it off in New York just as it is 
pulling into port. What good is the detector going to do there?
    There are 7,000 miles of unguarded border here. So you say, 
well, we are going to put those detectors at these major 
crossing points. They are not stupid. You know they will get a 
four-wheel-drive vehicle and drive it from Canada through 
Minnesota on one of those logging roads through there.
    So I am for detection. I guess my question is where we are 
going to deploy it. And it is not domestically, so that is my 
problem with the Domestic Nuclear Detection Office.
    The last comment I want to make is, I am sure, one you have 
all read, but I think it is worthy of repeating, and it is from 
the WMD Commission report. And I quote, we would like to 
emphasize that the United States has not made collection on 
loose nukes a high priority, unquote. And it bothers me, Mr. 
Chairman. I think it should bother this committee. Thank you.
    Mr. Linder. Thank you, Colonel.
    [The statement of Colonel Larsen follows:]

   Prepared Statement of Colonel Randall J. Larsen, USAF (Retired), 
           Founder and CEO Homeland Security Associates, LLC

    Mr. Chairman, thank you for the opportunity to comment on the newly 
created Domestic Nuclear Detection Office.
    Of all the potential terrorist threats America will face during the 
next several decades, only two have the capability of bringing a super 
power to its knees, biological and nuclear. Notwithstanding the name of 
this subcommittee, I must tell you, at this time there is no way to 
prevent biological attacks on the American homeland. As we discussed 
last month at the Committee's Wye River off-site, the biotechnical 
revolution of the past decade combined with the fact that the majority 
of pathogens suitable for biological weapons exist in nature make it 
physically impossible to prevent such an attack. Therefore, the focus 
for biodefense must be early detection, rapid response, and recovery. 
If properly prepared, we will be able to prevent a bioterrorist attack 
from becoming a social, economic, and political catastrophe. Without 
sufficient preparation, little can be done in the midst of a crisis to 
lessen the consequences of an epidemic.
    On the other hand, our efforts to protect America from the threat 
of nuclear terrorism must not be primarily focused on detection nuclear 
materials inside our own borders. The priority must be on preventing 
any terrorist organization from obtaining highly enriched uranium or 
weapons-grade plutonium. That is why I am concerned about the limited 
scope of the Domestic Nuclear Detection Office in the Department of 
Homeland Security.
    The newly created DNDO is certainly a worthwhile initial effort, 
but not the strategic program we require. The two greatest shortfalls 
are clearly identified in the title of the new office: domestic and 
detection. The word domestic leads me to believe its focus will be 
inside US borders. Most of the nuclear material that we must contain is 
outside US borders, the vast majority in the states of the former 
Soviet Union. Additionally, detecting nuclear material inside our 
borders is the last step in a long process, and what I would describe 
as a desperate effort with low probability of success.
    On the other hand, I will say that DNDO is a worthwhile initial 
step, because it may serve to improve interagency cooperation amongst 
the wide variety of players involved in preventing nuclear terrorism on 
our homeland. I applaud this initiative, but must ask, are we doing 
enough to identify and secure the sources of weapons-grade fissile 
material that could be used to build a terrorist weapon? To me, this 
should be the top priority.
    If Al-Qa`ida, or any other sophisticated terrorist organization 
gets their hands on highly-enriched uranium, they can most probably 
build a bomb. Any terrorist organization capable enough to obtain this 
material is probably smart enough to transport it to an American city 
without detection.
    Some would say we should spend more money on detection 
capabilities. I do not believe that this should be a high priority--
from both scientific and operational perspectives. In an unclassified 
hearing I cannot comment on certain facts, but for those who will try 
to convince you about the current capabilities, I suggest you ask them 
one question: ``Why can't you find the nuclear weapon that is located 
just 16 miles from Savannah Georgia?'' An Air Force B-47 dropped it 
there on February 5, 1958. It is reported to be 60 times more powerful 
than the bomb dropped on Hiroshima.
    Regarding funding research and development efforts for new 
technologies, I am a little more optimistic, yet, as we discussed at 
Wye River, trying to get a straight answers about the feasibility of 
such new capabilities is not easy. My bottom line on radiological 
detection is that it is most likely a better return on investment to 
focus on research and development rather than more deployment of 
current capabilities.
    My bottom-line on the establishment of the DNDO is that I support 
the initiative, but question why it is limited to domestic efforts. I 
think most of us in this room agree that a nuclear-armed terrorist is 
the most troubling of all threats to our homeland.
    If we agree that this is true, then I must ask you who is in charge 
of preventing such an attack, because, I do not know. If you wanted to 
have a hearing on what is being done to prevent such an attack, who 
would you have to call to testify? The Secretary of Defense, the 
Secretary of Energy, the Secretary of Homeland Security, the Secretary 
of State, the Attorney General, the Director of National Intelligence, 
to name just a few. In other words, no one is in charge.
    If I asked you who was in charge of missile defense in this 
country, you could point to one person who has been appointed by the 
Secretary of Defense to manage the program and a Presidentially-
appointed, Senate-confirmed Under Secretary who is responsible for an 
annual budget of $7.7 billion. It is very clearly known who is 
responsible for the program to defend against a delivery system, but 
who is in charge of defending against the weapon?
    Frankly, I don't lose any sleep worrying about intercontinental 
missiles delivering nuclear weapons on American cities, but I do worry 
about nuclear weapons being delivered in small trucks, because that is 
the most likely delivery method for a terrorist organization.
    I am also not convinced that a massive, new deployment of current 
or the next-generation radiological detectors at border crossings and 
ports will make us more secure. First of all, a nuclear explosion on a 
ship that was just pulling into one of our large ports means the weapon 
would have reached a high-value target. Second, why do we think that a 
terrorist will cooperate and bring a nuke through one of our largest 
ports? I would bring it across the border in a privately owned jet 
aircraft, a small boat (we have 95,000 miles of shoreline in America) 
or in a four-wheel drive vehicle across the 7,000 miles of unguarded 
border. Building a Maginot Line of radiological detectors would make us 
no more secure. In fact, it would divert funds from higher priority 
programs, and make us less secure.
    The answer to the threat of nuclear terrorism is preventing the 
terrorists from getting their hands on weapons-grade material. The 
majority of this effort will be accomplished outside of the US borders 
through programs that are not receiving the political and fiscal 
support they deserve. I do not see how the Domestic Nuclear Detection 
Office will solve this problem.
    Mr. Chairman, I conclude my brief remarks with what I believe to be 
the most troubling statement in WMD Commission Report. ``. . . we would 
like to emphasize that the United States has not made collection on 
loose nukes a high priority.''
    Mr. Chairman, what could possibly be a higher priority?

    Mr. Linder. It appears that we have some agreement among 
the three witnesses that this is not a domestic issue as much 
as it is a global issue.
    Dr. Allison, you said the first thing we should do is get 
rid of nuclear weapons. Do we start with ours, or do we start 
with the Soviets'?
    Mr. Allison. I said the first thing we do is lock them down 
and eliminate them where we cannot lock them down adequately at 
the source. As I tried to argue in my book, human beings 
actually know how to lock things down we don't want people to 
steal. How much gold does the U.S. lose from Fort Knox? Not 1 
ounce. How many treasures does Russia lose from the Kremlin 
armory? None. Why should icons in the Kremlin armory be more 
secure than material from which a terrorist could make a 
nuclear bomb? It makes no sense. No sense.
    And so I am for locking them down wherever they are, 
including ours, which can be done a little bit better, but that 
is not mainly the problem. The problem is in Russia, it is in 
Pakistan, it is in risky research reactors in Uzbekistan, 
places where guys could get enough material to make a nuclear 
bomb. And where I can't lock it down to that standard, and in a 
way that I am comfortable, I would try to clean it out of 
there, so getting the material out of these other places and 
destroying it where I can.
    So this is not for eliminating American nuclear weapons. 
This is about preventing terrorists getting nuclear material or 
a nuclear bomb which they could use to blow us up.
    I may have misspoken. I apologize.
    Mr. Linder. Are you confident that we know where all this 
material is?
    Mr. Allison. I believe that Porter Goss has testified for 
the first time publicly on this, that, no, he believes that--he 
and CIA believe that more than a bomb's worth of material is 
missing from the Soviet Union, and they do not know where it 
is. I believe we know where almost all of the weapons and 
materials are, and I believe that we can motivate the leaders 
of other countries who know also a lot about what is within 
their countries to get on board to a program that would lock 
all weapons and materials down to a gold standard, and to do so 
on the fastest technically feasible timetable.
    I believe we should be assisting them to the extent that we 
could in Nunn-Lugar if they needed assistance, but we mainly 
need to be motivating them. As I argue in the book, if Putin is 
securing Russian nuclear weapons as a favor to us, we have got 
the wrong picture. He should be thinking about the Chechens who 
blew up those kids in Beslan. If they get a nuclear bomb or 
material from which to make a nuclear bomb, they are not coming 
first to New York or Washington. They are coming first to 
Moscow. So he has got to feel this as an existential threat for 
himself. And ditto for Musharraf.
    Mr. Linder. Dr. Ikle, you said that whoever heads up this 
office will not have the power to instruct the Department of 
Energy or the Department of Defense. Should they?
    Mr. Ikle. The office should have a--within itself or 
separate a structure that can work effectively with the 
Department of Energy.
    Mr. Linder. Is your mike on? Is that mike on? We are 
streaming this on the Internet, so we want to make sure that we 
are on microphones.
    Mr. Ikle. Thank you.
    In a proposed structure, the normal hierarchical authority, 
the Secretary of Defense can tell his people in the Office of 
the Secretary of Defense or the military what tasks to do, when 
to deliver and so on. I don't see that in this organization.
    I don't think it is practical to bring together these 
large, independent, separate departments, DOE, Department of 
Defense and so on, and to give somebody the authority in this 
particular field to give orders and instructions. They have to 
do it, I guess, through the Secretary of Homeland Security, who 
would then call the Secretary of Defense and say, will you 
please tell your people to deliver X and Y that they agreed to 
do in DNDO.
    I think with goodwill and with congressional pressure and 
monitoring, I think it is feasible. To get started I see no 
alternative way. You do not want to create a new department to 
pull this together. We have the Homeland Security Department 
already pulling a lot of entities together, and it is not an 
easy job.
    Mr. Linder. Colonel Larsen, you mentioned that these 
detectors ought not probably be on United States soil. How many 
points in the world are we concerned about?
    Colonel Larsen. I think Dr. Graham could probably answer 
that question better than I, but I am not saying we shouldn't 
have detectors on U.S. soil. I mean, they are cheap, many of 
them. There are a bit of--they can work. Advertise them, have 
an information campaign. It is a bit of a deterrent, but I 
sometimes think that it would just deter them from bringing 
them through the ports and taking the weapons somewhere else.
    But I think that the source of the material, you can't make 
highly enriched uranium and plutonium anywhere. There is only 
so many places. Unfortunately there are some places we can't 
put them, like in North Korea or in Iran or in other places. 
But I think that the stockpiles, the enormous stockpiles we are 
talking about, we have to make them as secure as possible, and 
I think detection could help us
    Mr. Linder. Dr. Ikle, did you want to respond?
    Mr. Ikle. If I could just add a point here. In fact, we do 
not have adequate detectors. We do not have them, and unless we 
get to work on it, we will not have them. The detectors we now 
have, you have to be very close. You cannot see through a 
container; it is shielded and so forth.
    As to the nuclear materials, for the time being the places 
where they could be produced we can list in a book, but there 
are going to be more. There are going to be more because of the 
evolution of the peaceful uses of nuclear technology. The 
project on mixed oxide fuels, it is a whole chapter by itself. 
It will distribute plutonium that could be converted to bombs 
throughout the world as it is now planned in the Department of 
Energy. It requires almost a separate hearing to look into 
that. But the technology is spreading for making these fissile 
materials, so we can no longer count, unfortunately, on getting 
to a few sources and stopping it there, valuable and important 
as that is to do now
    Mr. Linder. Thank you. My time has expired.
    Dr. Allison, did you wish to make a comment?
    Mr. Allison. Yes, very quickly, because I think where we 
disagree may be as helpful for the committee as where we agree.
    I mainly agree here, but I would say that first a strong 
point of agreement, the research and development that would 
produce better detectors is certainly a good idea wherever you 
deploy them. And currently the physics of this problem was well 
illustrated in that ABC test that they performed on a 
television show that some of you saw that I was one of the 
witnesses in. Basically just the physics of the problem makes 
it easier for the hider and harder for the seeker. So if I 
start with the highly enriched uranium from which I could make 
a bomb smaller than a football, and if I stick it inside a lead 
pipe, as the ABC people did, and if I put that in a camera bag, 
the chances of detecting that with the current technologies we 
have, current, is nearly zero. I can take a picture of a cargo 
container and notice that there is a large metal object in it, 
but unless I open up the container and look in the box and look 
to see what is inside the pipe, I am not with this detector or 
any detectors we currently have.
    Now, is that given by nature, or is that a state of the 
current technology? Dr. Ikle rightly says it is a state of the 
current technology. What is America going to count on in the 
war on terrorism? Technology is one of our assets. So I would 
say this is a very important arena for moving forward.
    On the second point where I slightly disagree with Fred, my 
second--I proposed in this book for prevention three No's, the 
doctrine of three No's, the second of which says no new nascent 
nukes. I believe it is in the capacity of the U.S. Government 
to build a global consensus that we are simply not going to let 
people produce any more fissile material on a national basis. 
So, now, that means Iran, and it means dealing with North 
Korea. But I think you deal with those two problems, and then 
maybe 20 years from now there will be some new fancy technology 
that allows people to make nuclear bomb material in their 
bathtub or in their basement. But fortunately technology is on 
our side right now. Nobody has invented an easy way to create 
fissile material. It is a multibillion-dollar, multiyear, 
substantial investment. So I would, for example, in the case of 
Iran, not let Iran ever operate enrichment and reprocessing 
facilities. And I sketch out a strategy for trying do that in 
the book
    Mr. Linder. Thank you very much.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And, gentlemen, 
again, thank you for your testimony here today.
    Dr. Allison, if I could, on that last point, we are talking 
about the technology, and I agree with you, by the way, that, 
yeah, the technology of today may not be able to adequately 
detect weapons-grade plutonium or highly enriched uranium, but 
hopefully the detectors of tomorrow will. And clearly we all 
know the statistics, the fact that technology squares 
approximately every 18 months. So that in and of itself should 
provide evidence to the fact that we could and should pursue 
better detection equipment.
    If I could turn to the fact that there are three ways that 
terrorists might obtain nuclear weapons or material. One is to 
steal it; the other is for it to be given to them by some rogue 
state; or third is for them to develop it on their own. That 
was the last point that you touched on.
    Right now Mother Nature does not make it easy for us to 
develop weapons-grade plutonium or highly enriched uranium. So 
on that point, what do we need to worry about with the 
technology of tomorrow that a terrorist would pursue? What do 
we need to be watching for that would make it easy to produce 
weapons-grade plutonium or highly enriched uranium? Are there 
things that--we know what technology to look for now, the 
aluminum tubes, other things that if a state or terror groups 
were trying to obtain that type of material, we would know what 
they are up to. What are the types of things that we need to be 
aware of in terms of technology of tomorrow that would indicate 
terrorists trying to pursue an easier method of using weapons-
grade plutonium or highly enriched uranium?
    Mr. Allison. That is an excellent question, and it becomes 
very complex, and I am not the best expert on this. I think 
there are a number of people at the weapons labs who actually 
track this as an issue.
    I would say, first, it is quite possible that there will be 
some technological breakthrough that will make it a lot easier 
to make highly enriched uranium or plutonium. Should that 
occur, we will have a different problem. But right now, 
fortunately, on the supply side there is a choke point.
    Secondly, as Dr. Ikle says, as we think about civilian 
nuclear cycles, including mixed oxide fuels, mixed plutonium, I 
start from the question in what ways can this assist terrorists 
who want to make a nuclear bomb, and what can we do to make 
sure that as these processes are designed, we minimize that 
risk? And I would say that indeed as one watches the plutonium 
reprocessing that has been going on, I see no sense in this 
whatever. I think that if we are--in the one instance in which 
what we are doing is stimulating Russian elimination of 
plutonium, I am in favor of. But as a general proposition, the 
notion that the British are continuing to reprocess plutonium 
for the Japanese and store it makes no sense to me, because 
when it is in the spent fuel, it is not dangerous; when it gets 
loose, it is. So I would say that is the arena.
    I think the second point of your question, which is very 
important, what we have learned--everybody should study the 
A.Q. Khan case. Everybody should study this very carefully. I 
have a reasonable starting point in my book, but I think we are 
going to learn more about this every week. And here the father 
of the Pakistani nuclear bomb, as you know, set himself up as 
the first global nuclear black marketeer, sourcing globally the 
ingredients from which he made nuclear bombs. So he sold them 
nuclear bomb designs out of China, a very good nuclear bomb 
design actually. He sold them uranium hexafluoride, the 
feedstock out of North Korea. He sold them equipment for 
centrifuges out of Malaysia. He had South African scientists 
working on their bomb programs and some materials in their 
warehouses. He was running his money out of Dubai. I mean, this 
was a pretty amazing global--globalization is a fantastic 
process. He took full advantage of it.
    So I think the notion of--go back to what I think 
Congressman Cox mentioned, if I got it right, the notion that 
there has got to be some global engagement in an international 
effort in which nations declared this to be illegal. 
Fortunately, that process has been moving forward, in which 
there is great cooperation on export control. So, as Colonel 
Larsen was saying, we are looking at every border when things 
go across. We are looking at dual-use items. I mean, there is a 
huge, huge agenda of work in that arena. And one that we are 
working on, but I would say not with--I mean, it is kind of 
like with all deliberate speed rather than, holy Moses, this 
could actually be happening. But this was the case. I mean, the 
facts about the A.Q. Khan case in Libya are now 100 percent 
understood, because we have an opportunity for American 
officials to go and, you know, see the scene completely.
    Colonel Larsen. Let me--just two brief comments about the 
technology, because I think sometimes there is a misconception. 
Dr. Graham and I have never built a nuclear weapon. But, Dr. 
Graham, if you and I had 100,000 pounds of highly enriched 
uranium and $100,000, you suppose we could make a crude bomb? I 
have no doubt in my mind.
    So there is no new technology that is going to give this to 
Al-Qa`ida or a terrorist. They already have that new 
technology. And then there is this technology you were 
mentioning, like Moore's law, that, you know, it doubles in 
speed, or the computers is every 18 months. Well, remember, 
that is computers; it is not detection capability. Physics 
don't change every 18 months, and that is my concern.
    So I understand we have got to have some R&D to look at 
this, but the basic physics will not change, and finding a 
weapon is very difficult.
    Mr. Langevin. Well, I have additional questions, but my 
time is running out, so I will hold them for a second round. 
Thank you.
    Mr. Linder. Thank the gentleman.
    Does the Chairman wish to inquire?
    Mr. Cox. Thank you. Thank you, Mr. Chairman.
    The testimonies that the three of you have provided have 
laid out the problem very, very neatly.
    Dr. Allison, you began with the global nature of this 
problem and the importance of controlling materials worldwide. 
Dr. Ikle, you warned us that we need better sensors and 
forensics. What we have in hand is not adequate. And Colonel 
Larsen, he told us that even if we do have good technology, we 
need to think about how and where we are deploying it, because 
putting it only at major border crossings will be inadequate, 
and that we would be better off trying to look at the source of 
these materials rather than scouring the whole planet or our 
whole country indiscriminately.
    That suggests to me two things; first, that we need to 
think about the role that intelligence plays in all of these 
decisions. And I don't see an element in the proposal for DNDO 
to integrate intelligence. Second, the D in front of DNDO may 
necessarily constrict us in ways that nobody really wants, 
because this problem has its ultimate focus in the United 
States, but it is not at all about something that is going on 
uniquely in our country. And so coordinating these efforts 
globally seems to be very key.
    There is--if not a third aspect of this problem, there is a 
corollary to these two problems, and that is that we have got 
to make, I take it, some budget choices. If we were to give the 
President the money that he asked for, the nearly quarter of a 
billion dollars, we would have to make some immediate budget 
choices about whether to buy a whole lot of today's technology 
in a hurry or whether to spend that money on developing 
something better. So I wonder if you could critique or 
complement, if you choose to do so, the precise proposal that 
is before us from the administration, and I think from the 
Department, in the form of the President's budget and a letter 
from the Secretary of Homeland Security for a Domestic Nuclear 
Detection Office rather than a nuclear terrorism prevention 
office to tackle that problem perhaps more generally.
    Dr. Ikle. And I hope to hear from you each of you.
    Mr. Ikle. I have been somewhat involved in the birth of 
this organization, and my guess is the ``D,'' the domestic, is 
there because it was the Homeland Security Department that took 
on the initiative to do something about it.
    Mr. Cox. If I may stop you right there, one of the concerns 
I have had in other areas of homeland security is this notion 
that somehow it is not of interest to the Department of 
Homeland Security if there is an attack on the USS Cole. It is 
impossible for what is now the second largest Cabinet 
department to have a handle on its number one priority, the 
prevention of terrorism, if it is constricted to the domestic 
United States in terms of its intelligence.
    Mr. Ikle. The intelligence--actually, there are several 
paragraphs in the proposal that is in front of me--there have 
been different proposals floating around referring to 
coordination of intelligence with the Director of National 
Intelligence. I think that, with proper management, that will 
be taken care of naturally. Like the Department as a whole, 
HSD, this organization would be plugged into the intelligence 
organization.
    Mr. Cox. Well, I do want to focus again on this notion that 
the Department of Homeland Security is somehow restricted in 
its outlook to the territory of the United States. Because if 
we have by design a Nuclear Detection Office, then we are going 
to assume the solution to the problem without continuing to 
question what the problem is or how to attack it, and all that 
DNDO will be is a project and we will see how fast we can pour 
money into the deployment of the specific technology that we 
have chosen to put at our major crossing points.
    Mr. Ikle. Right, I fully agree. And I was guessing the word 
``domestic'' is there because maybe some lawyer in the 
Department of Homeland Security being involved in the drafting 
said, ``you have to stick to the domestic.''
    Mr. Cox. The statute certainly doesn't require that.
    Mr. Ikle. Prior to this effort, the Secretary of Defense--I 
am breaking some confidence here and getting out some news--
contacted the Secretary of Homeland Security for a joint 
effort. He was turned down, so that was too bad. But at least 
now the Homeland Security Department decided to move ahead.
    I would think you have the power to change it and NNDO, 
National Nuclear Detection Office, might be a better name and 
clear up some of this confusion and ambiguity. I totally agree 
with you. It has to work abroad as well as on our borders and 
within our territory.
    Mr. Cox. If we could just hear from the other witnesses, 
Mr. Chairman, I have no further questions.
    Colonel Larsen. The disconnect seems to be in the charter 
of this committee, which says ``nuclear counterproliferation 
and detection.'' So I think we are trying to put that whole 
role on this new office in DHS, when what Congress passed here 
last year for the budget, I mean the Intelligence Reform Act, 
creates this new office, the National Counterproliferation 
Center.
    So to me that seems that new thing under DNI--of course, 
they got 18 months to stand that up, which I think is too long, 
in my opinion. The original bill said 12 months. It got 
extended to 18. But that might give us a better chance of 
having someone in charge of the whole thing, and maybe this 
just should be the Nuclear Detection Office to do the R&D.
    We have folks at S&T, at DHS, doing R&D on MANPADS, what is 
the best which way to beat that kind of threat we are facing or 
whatever, and they are doing that. Maybe that is what this 
office should focus on, is the R&D effort for detection. 
Wherever we put them, take the word ``domestic'' out. I am 
happy with that. But I don't think it fits well, this office, 
for your full charter, because you start with the word 
counterproliferation.
    Mr. Linder. Dr. Allison, did you wish to comment?
    Mr. Allison. Yes, I agree with both of these comments and 
would just push it a little bit further.
    To Congressman Cox's question, if you start with what are 
the jobs to be done and then, because we always had the problem 
with domestic and foreign and then we get slightly confused 
about, okay, well, the jurisdiction of this committee or this 
department, but I think it is worth it to start with the logic 
of the issue and then work your way back.
    You would like, in the first instance, to be able to detect 
and therefore seize nuclear material that could be used to make 
a bomb, that might be on its way to become a bomb. Where would 
you like to detect it? Wherever you can detect it. And where 
would you like to seize it? Wherever you can seize it. So when 
it is crossing the border in Russia, when it is going across 
Bulgaria, if it is on the seas, if it is at the port, if it is 
New York City, wherever it is, if you had a piece of technology 
for doing that, do you want to have a stamp on it that says 
this one can only be used domestically and this one can't be? 
So it is a global problem, and it should have a global 
solution.
    Secondly, right now, we actually have people that do this. 
As I described in my book, The Dragon Fire Incident, we thought 
that there was a nuclear bomb in New York City a month after 9/
11, so they dispatched to New York City the nuclear NEST teams. 
Who are these? These are nuclear experts that go with the 
current technologies, whatever they are, to look for any signs 
of radioactivity. Now, as I said before, because of physics, 
they have a hard problem, because if I am trying to hide it I 
have a much easier job than they if they are trying to seek it 
out. So the technology changes over time.
    But there are people that are now doing this; and there are 
people, for example, Special Forces guys, who are looking 
around in Afghanistan now. Are they not looking for nuclear 
weapons material? Excuse me, of course they are. I mean, that 
is not a classified fact. That is obvious. If they are not, 
they are not doing their job. So whatever capabilities we have 
ought to be a national capability. So I agree with that very, 
very strongly.
    On the third point, if you were going to call this--if I 
were naming or whatever, ``national'' makes a whole lot more 
sense.
    Fourth, if you go back to Colonel Larsen's first point, one 
of the problems with this whole game is, if you ask who is in 
charge of preventing nuclear terrorism, it is either all hands 
go up or no hands go up. But there is nobody for whom that is 
their job when they get up in the morning, that is their job 
when they go home at night, and that is their job if something 
terrible happens. But that is not the task of this group.
    I think for the structure of this organization, if it were 
able to speed the research activity that is now going on to 
improve the quality of detection for whoever is using it, an 
intelligence agent who is out somewhere or Special Forces, PSI 
ships that are on the sea as well as somebody at a port or the 
nuclear NEST teams when they come to look in one of our cities 
looking for something, I would say that is perfectly fine. And 
this if this is not adequately integrated with those, I think 
it will end up being an aside.
    Mr. Linder. Thank you.
    Does the gentleman from Mississippi wish to inquire?
    Mr. Thompson. Yes, Mr. Chairman.
    The panel pretty much agreed that, in terms of the threat 
of nuclear terrorism, we have to find the weapons grade 
material at the source and at some point create an adequate 
detection system. I heard a little disagreement on whether that 
should be a private sector detection system or a publicly 
operated detection system, and whether we use the research labs 
or what have you to help with that. Can you kind of share where 
you think the private sector falls within this detection effort 
in terms of the whole nuclear identification and threat?
    Dr. Allison, we will go with you.
    Mr. Allison. I think Dr. Ikle, who has thought a lot about 
this, in his proposal for some more Apollo-like or some manager 
of the whole project within and making use of what is known in 
all of our national weapons labs is a big piece of this, and I 
don't have my mind fully around that.
    But I have a second observation, and it is not well-
grounded, but I would say that, from my conversations with at 
least some people in the private sector and given the extent to 
which the game of finding highly enriched uranium and plutonium 
is a game of, in the first instance, physics and then the 
embodiment of physical capabilities within the laws of physics 
that allow for detection, I would be very interested in either 
as that unit or independently of it trying to stimulate private 
initiatives in this arena. Because I think you have got a lot 
of inventiveness there. And whether it would be by--I tried to 
think a little bit about this--maybe by saying here is some 
parameters of the current detection capability, and if you can 
think of a better way to skin this cat, there would be a 
potential for--mean, there would be a buy of a certain number 
of things.
    I think in the bio area, some of the most interesting 
initiatives that have come forward is when people think, okay, 
I can go do it my way differently than the structured way.
    So I would be interested in finding a way to have as part 
of it some engagement of the private sector initiative, not by 
funding their research in advance but by telling them we were 
going to buy a certain amount of stuff, and if you come up with 
a great gizmo, come and present it for review.
    Mr. Ikle. The private sector is already engaged. The 
Homeland Security Department has let out many small contracts 
and some larger ones to the think-tanks, to industry people for 
making contributions, and I could see further contributions 
coming from the private sector, especially for things which, 
not getting into deep classified stuff, but which refer to the 
deployment, to the defense ability, the gates through which you 
take the containers or what have you or making cheaper products 
once the products have been designed.
    But you have to be on guard not to let that dominate the 
whole effort for getting advanced sensors which we need so 
badly. The real capability is with the laboratories. They have 
worked for 60 years on plutonium, highly enriched uranium and 
making these materials into weapons and combining it, and they 
have the classified information, they have the experience, they 
know from their intelligence experience over 60 years how other 
countries go about it, how terrorists plan to go about it. They 
can put together larger teams, and they have the laboratory 
material to work on it. They must take the lead.
    Now they will spin out some new ideas for detecting highly 
enriched uranium, describe the shielding, which Graham Allison 
properly referred to, which prevents us from finding it now. 
There are ideas for finding uranium despite that, but they need 
to be worked on at the labs.
    Then once you have design, particularly industry can make 
cheaper prototypes, can produce the 1,000 items, if you need so 
many, much cheaper than the labs. The labs are not doing the 
production. But you need a driving center where the basic 
development begins, and that, in my view, has to be the 
laboratory, and I think all the experts who have looked at this 
would agree with it.
    Colonel Larsen. I agree. The basic science needs to be done 
at the labs. But, as you said, doctor, a lot of good scientists 
left there in frustration. We would certainly need a program to 
get some of the folks back there. Basic science needs to be 
done there, and then turn it over to industry.
    Mr. Linder. If the committee would indulge me, I would like 
to submit for the record a statement by Dr. David Abshire, 
President of the Center for the Study of the Presidency.
    In his statement--I would like to ask the witnesses just to 
comment on this. In his statement, for the record, he said 
``The Nation's defense against covert delivery of nuclear 
weapons remains an unnecessary Achilles heel.'' He further 
elaborates that ``as part of the solution, any plan must not 
only involve deployment of detectors but weapons interdiction 
capabilities. This would imply that the DNDO should have an 
operational element to its mission, which it does not. Is 
persuasion its only option? A rather large task, considering 
the key partners of this office are DOD, DOE and State.''

   Prepared Statement for the Record of David M. Abshire, President, 
                 Center for the Study of the Presidency

  Toward a Coordinated and Comprehensive Defense Against the Smuggled 
                         Nuclear Weapons Threat

    Thank you for the opportunity to submit these comments to the House 
Committee on Homeland Security. You are to be commended for taking up 
such a critically important issue as ``DHS Coordination of Nuclear 
Detection Efforts.'' Dr. Fred Ikle, appearing before your Committee 
today for this hearing, is responsible for my involvement and that of 
the Center for the Study of the Presidency in this issue. Dr. Richard 
Wagner of Los Alamos National Laboratory advises the Center in this 
regard and is a vital asset to our work. He would bring enormous value 
to your Committee's deliberations on this subject and I hope that he 
can testify before you in the future.
    In the course of this hearing, you will find that detecting and 
defending against covert nuclear attack remains the job of more than 
just the Department of Homeland Security. Yet, the advent of the 
Domestic Nuclear Detection Office is promising. I would like to address 
the difficulties ahead in pursuit of a more comprehensive defense, the 
pros and cons of DNDO in this context, and the value of taking a more 
inclusive approach to devising, developing, and deploying a layered 
defense against the ominous threat posed by smuggled nuclear weapons 
and global terrorism.
    The likelihood of a terrorist organization obtaining a nuclear 
weapon increases with every passing day. Professor Allison will make 
this case before your committee with disturbing clarity. There can be 
little doubt that, if in possession of a nuclear weapon, most terrorist 
groups would exhibit little reluctance to use it against an American 
city.
    A major investment has been made over the years in missile defenses 
to diminish the threat from nuclear weapons owned by nation-states and 
delivered by ballistic missiles. Yet, at the same time, the nation's 
defense against covert delivery, something even Oppenheimer warned 
against over 50 years ago, remains an unnecessary Achilles' heel. 
Consider that over two million pounds of illegal drugs were 
successfully interdicted crossing our borders last year. The presence 
of such drugs in the marketplace suggests an enormous tonnage 
penetrates our borders undetected. A terrorist requires the amount of 
highly enriched uranium the size of a grapefruit to kill thousands of 
Americans almost instantly.
    Unfortunately, there is no straightforward solution to the smuggled 
nuclear weapon threat. It requires defense in depth. This includes not 
only development and deployment of better detectors. It overarches the 
following:
        <bullet> Global nonproliferation initiatives,
        <bullet> Bolstered intelligence operations to detect 
        terrorists' nuclear-related activities,
        <bullet> Greatly strengthened weapons interdiction 
        capabilities,
        <bullet> Enhanced opportunities to be exploited during the 
        crucial period between warning and attack, and
        <bullet> Improving post-attack recovery response capacities and 
        enhanced forensics.
    Necessary forensic capabilities--in combination with better 
detectors--are among the principal areas deserving increased R&D 
attention.

Accelerate R&D Across the Executive Branch
    Key to developing and deploying a layered defense in depth entails 
better technologies for detecting the presence of a nuclear device or 
materials. The establishment of Domestic Nuclear Detection Office 
(DNDO) is an extremely positive step in improving detection and will 
provide an organization which, adequately funded, can do much to 
accomplish the above. Considering the rising likelihood and potential 
devastation of the threat concerned, it is worth asking whether DNDO 
will improve deployed detection technology as much and as quickly as 
possible. DNDO's charter and authorities are sound, but progress should 
be measured by how well this initiative overcomes the challenges of 
physical science as well as the realties of political science.In other 
words, how DNDO is organized, structured, and managed significantly 
affects its ability to deliver.
    Three challenges at the nexus of physical science and political 
science illustrate the point and offer options for way forward:
    1. To deal with such a difficult scientific, technological, and 
operational issue requires innovation, free thinking, continuity of 
effort, creativity and simultaneous risk taking. The government's 
conventional approach to research and development (R&D) rarely 
resembles these traits.
    2. The anti-nuclear smuggling R&D task is further challenged by the 
fact that many different government organizations have important and 
legitimate roles in confronting the threat, including the Department of 
Homeland Security, the Department of Energy, the Department of Defense, 
and the Department of Justice.And each of these agencies requires the 
same leap in nuclear weapon detection capability to be most effective.
    3. Those most needed to contribute to this challenge reside across 
a diffuse set of research institutions, including universities, 
national laboratories, and private industry, the latter often within 
small, thinly-financed firms. It has generally been found that truly 
creative research is best pursued by maintaining close coupling between 
the researchers and those dealing with day-to-day operational 
challenges.

Employ Proven RDT&E Management Attributes
    The government generally found success when it separated the effort 
to solve a specific problem from every-day research, development, 
testing, and evaluation (RDT&E) process. As we understand it, DNDO is 
intended to do this. Its success depends on its ability to emulate key 
features of previously successful efforts to bridge government, 
academia, and industry to make rapid leaps in technical capabilities 
using what today we call transformational and evolutionary R&D. 
Examples include the Manhattan Project, the Apollo Project, the U-2, 
SR-71 and F-117 at the ``Skunk Works,'' and the Strategic Defense 
Initiative.
    The Center for the Study of the Presidency began a project on the 
issue of accelerating R&D for a more comprehensive defense against the 
smuggled nuclear weapons threat in April 2004. That project will issue 
a brief summary and review of the management characteristics that made 
such models as the Manhattan Project, SDI, and the Skunk Works 
successful. I would be happy to share the findings with you and the 
Committee once available.
    A mini-Manhattan Project today should focus specifically on the 
detection of nuclear weapons and materials. The creation of a mini-
Manhattan Project leading to a capability to detect the presence of 
nuclear weapons and materials could be conducted without seriously 
disrupting the framework of the planned DNDO and could have an enormous 
impact on America's and the world's future security. Key features of 
past successes include the personal commitment of the President and 
Vice President, a permeating sense of sustained urgency, and a strategy 
in which:
        <bullet> high-risk, high-payoff developments are pursued, 
        hedging against possible failure with alternative approaches 
        carried in parallel
        <bullet> R&D reaches from basic research through to fieldable 
        prototypes;
        <bullet> the R&D is done mainly outside of government by large, 
        integrated, multidisciplinary, R&D teams with forceful and 
        experienced leaders, and with:
                <bullet> wide latitude to achieve broad, ambitious, 
                mission-level goals
                <bullet> freedom to change R&D objectives and 
                approaches quickly and flexibly, as the R&D proves what 
                is feasible
                <bullet> direct, frequent, working-level contact 
                between users and R&D people
                <bullet> the expectation of continued involvement to 
                achieve both near-term milestones and long-term goals
        <bullet> the role of senior, centralized government leadership 
        is to set broad goals, secure funding, and provide freedom of 
        action for the R&D teams by cutting red tape for them; and
        <bullet> the ability is provided to waive certain procurement 
        and personnel regulations designed to conduct ordinary 
        government research and development.
    That DNDO will report directly to the Secretary of Homeland 
Security is a positive sign. In addition to that, and in addition to 
personal commitment from the President and Vice President, a small 
group should be established within the White House staff to provide 
clout and top-cover for the exceptional R&D approach and to assure 
coordination of nuclear-related cross-departmental activities and the 
provision of appropriate support by agencies and departments throughout 
the federal structure.

Apply New Concepts of Deterrence
    While classic nuclear deterrence fails in confronting this threat, 
it is wrong to believe that terrorists are undeterrable. The concept of 
mutually assured destruction (MAD) depended upon a fear of retaliation, 
even with accidental launch. Today's smuggled nuclear threat, however, 
must instill in the terrorist a fear of failure. A nuclear device would 
represent an enormously precious asset to a terrorist organization. An 
effective strategy seeks--via several means, hence a layered defense--
to disrupt the enemy's planning and operations cycles, thereby reducing 
the attacker's confidence in their ability to conduct a successful 
attack. Thus by strengthening and continually changing our defensive 
tactics, the threshold against which a potential attacker must measure 
the likelihood of success can be substantially raised. This offers the 
concomitant benefit of requiring an enemy to conduct more complex 
operations involving more people with more resources and more 
communications over a longer period of time, thereby increasing the 
likelihood of discovery.
    Creating a legitimate fear of failure, however, contributes to only 
half of an effective deterrent. If a potential perpetrator possesses 
the fissile material intended for delivery, a proliferator permitted 
it. While the nation's attention would rightly turn to mitigating and 
containing the impact of a nuclear device were one or more detonated in 
an American city, all those complicit in the attack would not have died 
in carrying it out. The source of the nuclear material must be held 
responsible for allowing it into those hands. Finding the source 
requires excellent nuclear forensic capabilities, which we lack today. 
Credibly attributing the material to a source and threatening 
retaliation can complicate the potential perpetrator's ability to 
obtain nuclear material in the first place.
    But what if it's an accident? What if the proliferator is a 
careless nation, perhaps too unstable or otherwise insufficiently 
committed to guarding its nuclear material? Central to MAD during the 
Cold War was the stated intention held by both the U.S. and the Soviet 
Union that accidental launch constituted an attack and would elicit 
retaliation. While disproportionate on its surface, it resulted in an 
effort on both sides to act as better stewards of their deadly 
stockpiles. Nonproliferation regimes remain vital today, perhaps more 
than ever during the Cold War. Today's realities, however, must inform 
the message we send to proliferators about the consequences of their 
actions.

Final Thoughts
    Secretary Chertoff's Homeland Security Advisory Council established 
a Task Force on the Prevention of Weapons of Mass Effect (WME) on U.S. 
Soil. Exhibiting an encouraging mix of experts inside and out of 
government Norm Augustine Chairs the Taskforce's subgroup on the air 
domain while former Secretary James Schlesinger chairs the land group 
and I chair the sea subgroup. Under the chairmanship of Lydia Thomas, 
this new Taskforce, slated to report out in October to the Secretary, 
holds promise of addressing several of the challenges cited above. 
Charged with assessing current defensive efforts and mapping a layered 
defense in depth to prevent the use of WME, the Taskforce can be 
expected to inform the development and role of the DNDO. Mr. Vayl 
Oxford, acting director of DNDO for the Department of Homeland Security 
is assigned to my subgroup as one of the subject matter experts. His 
testimony tomorrow I am certain will add productively to your 
committee's constructive oversight.
    Thank you for the opportunity to share these thoughts with you and 
I look forward to meeting with you and the committee in the future.


    Mr. Linder. Would you care to comment on that? Colonel 
Larsen?
    Colonel Larsen. I am not sure I can in an open hearing.
    Mr. Linder. Dr. Ikle?
    Mr. Ikle. Yes. It is a good suggestion. I have worked with 
Dr. Abshire on this problem. He has been very much engaged, as 
a few of my other colleagues, and he is pointing in the right 
direction. It is an Achilles heel. You need operational 
capability. I mentioned earlier in my testimony the need for 
exercises, tests to get going, which have to be briefed back to 
your committee so you can make sure something goes on.
    What I am worried is that the Domestic Nuclear Detection 
Office becomes a domestic nuclear discussion organization and 
they don't really work the things in the field and they don't 
work the project in the laboratories. They parcel out small 
grants here and there for keeping private industry happy, and 
we are not moving forward. This has been going on, and many of 
us have been watching it, for 4 years, if not longer, and in 
some ways for 7 years. We knew what had to be done.
    There is one more point to be made on the improved 
detection sensors and forensics, on which we all agreed they 
are desirable. It may take several years, and if the time comes 
when proliferation poses new challenges because of the fuel 
cycle changes or whatever, when that time comes, we need to be 
ready. If you don't start now, we will not be ready 10 years 
from now.
    The Department of Defense, when they develop a new 
airplane, they have to plan 10, 20 years ahead. Missile defense 
has been in the works for a long time. These things cannot be 
done in 6 months.
    Mr. Allison. We should have started 4 years ago. We need to 
start now. I haven't seen Abshire's proposal, though I 
generally think of him as a pretty sensible fellow, so I don't 
know quite what he means by ``operational.''
    I think I would be dubious about this organization as I 
don't see it having any kind of authority that would look like 
an active intelligence or active police authority. I think it 
has got to be hooked up with--you know, if it hears that there 
is a nuclear bomb or has some reason to believe there is a 
nuclear bomb in Boston, I hope they are going to send the NEST 
teams, because those are the operational people that do that 
now, and they should be doing it. If it is a question of 
intercepting and arresting somebody, that is either going to be 
inside the country, the FBI, or outside, CIA.
    So I am not quite sure what the ``operational'' is. I think 
the notion of testing and even actually red-teaming, where they 
notice how easy it is to do things, which are embarrassing, but 
those are the things you learn from.
    The reason why we know that Los Alamos has had problems is 
because the former seal groups test them from time to time, and 
almost every time they test them they overwhelm the security 
system. So you learn from that, gee, we got to get our security 
system better organized. It is embarrassing, but it is the only 
way I think you learn.
    Mr. Linder. Does Mr. McCaul wish to inquire?
    Mr. McCaul. Thank you, Mr. Chairman.
    Dr. Allison, I have read your book on nuclear terrorism. It 
is an eye opener, and I think you lay out an excellent strategy 
for dealing with this real problem we have.
    Al-Qa`ida stated publicly they have the right to kill 4 
million people, 2 million children, and they are not going to 
accomplish that by just flying airplanes into buildings. So 
that really raises the issue of the prospect of a nuclear bomb 
going off in the United States.
    I went to the Houston Port Authority about 2 weeks ago, and 
I was glad to see that the radiological sensors will be put in 
place in the short term. But that is really our last line of 
defense. I am also concerned about between the ports of entry, 
where you have a lot of the smuggling going on in this country.
    Of course, in your book, Dr. Allison, you raised the issue 
of nuclear briefcases, nuclear bombs that could be about the 
size of a bale of marijuana coming across over our border. In 
terms of the technology on the border itself with these types 
of sensors between the ports of entry, I don't know what could 
be done in that prospect.
    But, secondly, beyond that, as Chairman Cox mentioned, the 
issue of intelligence, to me that really is the key to the 
prevention aspect, dealing not with our last line of defense 
but our first line, detecting this material. With Dr. Kahn 
being the master proliferator, I think it very difficult to 
secure nuclear materials that may be out there, but I think the 
intelligence route is the best line of defense.
    Lastly, I just want to point out, I agree the domestic name 
was probably phrased by a lawyer in the Homeland Security 
Department who thought their charge was with domestic affairs 
only, but I do think the national term is more fitting. And I 
don't know if the idea of this National Counterproliferation 
Center, it seems to me it would be somewhat duplicative if it 
couldn't be sort of merged into one organization.
    I wanted to get Dr. Allison's comment on the first question 
and, Dr. Ikle, your comment on the second.
    Mr. Allison. On the first question, on intelligence, I 
think you are absolutely right that the intelligence is the 
longest pole. The chances of finding something if you don't 
have a clue about it are very, very, very low. So I think what 
Randy--what Colonel Larsen reminded us, the WMD Commission 
report is a good report, and it says rightly that we basically 
have not invested heavily in the kind of intelligence 
capabilities we would like if nuclear terrorism were the 
problem. So that is a big, big, big issue. I would say it is 
first at the top.
    On your point about between the major portals of entry, 
this is the kind of another one of the dirty little secrets 
about this whole picture, but I say provocatively that we 
remain a country almost without borders. So terrorists who are 
bringing a nuclear bomb or material for a bomb into the country 
are going to come through a highly protected port or portal 
where they get inspected, and if we build the fence higher, 
higher and higher and have 100 miles with no fence, what 
happens?
    We have actually run this experiment down by San Diego. So 
we have a huge fence and no one comes to the fence, amazingly, 
but more people come than came before, because they come around 
the fence.
    Down in Houston, the BHS numbers for 2004 have 65 percent 
more people, 65 percent more illegals, coming into the country 
in 2004 than in 2002 right after 9/11. So you would say there 
is something not serious about this. I would say this is not 
the topic for this hearing, but I think it is absolutely an 
appropriate topic for a committee that is charged with Homeland 
Security to say, is this working?
    Mr. McCaul. Thank you.
    Your comment on the organizational structure?
    Mr. Ikle. Right. The Proliferation Center, if it is set up, 
would be a twin of the National Nuclear Detection Office, we 
have it named as of now, NNDO, and could be melded together. 
But I think the proliferation goes into somewhat different--
could be just two parts, a twin structure. Proliferation gets 
into other questions of diplomacy, of working on Iran with the 
Europeans and so on.
    Then to carry out some of the implementation, like the PSI, 
Proliferation Security Initiative, where you want to board 
ships and check for nuclear weapons, then you need the things 
that DND or NNDO is supposed to develop and exercise and do 
research on. But if you put it together or not, I think I have 
no fixed view on that.
    I do think it is important to take a long-term view of 
getting better technology so we can, 10 years from now, cope 
with the new proliferation dangers which are coming. We see 
them coming down the pike, the new ways of using plutonium 
fuel, that the Department of Energy has a program with hundreds 
of millions in collaboration with Russia, which I don't think 
has been looked at carefully from the point of view of 
proliferation.
    So these things are coming and you do want to be prepared, 
and that is where we want to engage our best talent in the best 
location, to repeat myself, in Department of Energy 
laboratories, with proper management.
    We have had too much in the last few days, the last few 
years, when work was done on sensors, parceled out, small 
research projects, to universities, to some of the labs, and 
the whole thing was not put together. It hangs together, 
because, as I say in my written testimony, you are talking 
about two elements, plutonium and uranium developed in the lab 
63 years ago, studied there for 60 years, how to make them into 
bombs. And because it hangs together, you can come up with new 
ideas. And let me remind you again, there are ideas that are 
not being worked on for finding highly enriched uranium, 
despite the shielding. This is a life-saving device for our 
country. Let us work on it. Let's empower the people to do the 
right research project.
    Mr. McCaul. I see my time has expired.
    Mr. Linder. The gentleman from Washington.
    Mr. Dicks. I want to thank the witnesses here today.
    I am troubled somewhat on this organizational point that 
Colonel Larsen made. Don't we have to sort out whether it is 
going to be the National Counterproliferation Center that is 
going to take the lead on this or is it going to be the 
domestic or National Nuclear Detection Office? Colonel, what is 
your advice to us here?
    Colonel Larsen. Thank you for asking that. I really wanted 
to comment on that. I realize markup is tomorrow.
    Mr. Dicks. That is a question also in my mind. Why are we 
rushing to judgment here on one the most important issues when 
we haven't had a chance to look at the bill? To me, we ought to 
take time and get this one right.
    Colonel Larsen. You asked my opinion, so I will give it to 
you. The National Counterproliferation Office should be in DHS, 
and the detection office should be a sub-unit under it. If you 
look at the charter of what it says here, it says this 
subcommittee is nuclear and biological counterproliferation 
detection and all those other things. It is right here.
    That is why I was so pleased when I saw this subcommittee 
created. I go, they got it right. This is good.
     So now you got this initiative that Congress passed, the 
President signed, and said, well, okay, maybe we should have 
this National Counterproliferation Office. We agree that nuke 
and bio are the biggest threats we face to our homeland. Why 
not put the National Counterproliferation Center in DHS and 
give it some real authority to really do a new job? Most of 
this is just 22 agencies we stapled together, probably the 
right move, but now to give it a real mission for protecting 
us.
    So you asked for my opinion. I gave it to you.
    Mr. Dicks. Anybody else have a comment here?
    Mr. Allison. Well, I haven't thought my way all the way 
through this, but I actually like Colonel Larsen's suggestion. 
I think that what you have here, to the extent that this is an 
office that helps organize and fund research so that we improve 
the technologies and capabilities for everybody, whoever they 
are, using them globally, whether they are used by Special 
Forces or by NEST or by a guy at the port, that part I think 
makes sense.
    But I think that Colonel Larsen has a very good point, in 
my view, which is you try to think about what this National 
Nonproliferation Center will be, assuming that it is, because 
it is now just an item on a piece of paper. The proposition 
that it might work within this structure I think is--haven't 
worked my way through it.
    Mr. Dicks. I would suggest, and if I could have the 
attention of the chairman, to me it seems like it would be 
better for the chairman and the chairman of this subcommittee, 
Mr. Linder, to sit down with the top people in the 
administration, and hopefully keep the Democrats advised, and 
work out this thing.
    I think having two separate offices doesn't make any sense. 
Obviously, one of them is going to be looking more in the 
intelligence arena, and one of them could be doing the R&D on 
the detection equipment. That may make sense. I even like 
Colonel Larsen's idea better of putting them together and 
making the DNDO a sub-unit of the National Counterproliferation 
Center.
    Mr. Cox. If the gentleman would yield, I agree with that as 
well; and, in fact, completely independently, several of us 
have reached that same conclusion. The balkanization that 
Colonel Larsen described in his testimony is the enemy. The 
reason we have a Department of Homeland Security is to get a 
grip on such things.
    Just to the gentleman's point about working with the 
administration, we had a discussion about this yesterday with 
Michael Jackson, who is, as you know, the deputy at DHS. I 
expect that the administration is going to be moving with 
alacrity on these concepts.
    The law that we passed in Congress doesn't say where NCP is 
located, so the President could choose to put it in the 
Department of Homeland Security. I do think there is an awful 
lot of discussion about putting it under the DNI. Putting these 
things together would be very, very sensible.
    Our authorization bill is going to take a very long time. 
Whether we ever get to conference with the Senate, for example, 
is still up in the air. Meantime, real life is going to be 
preceding well ahead of these events, so the only reason the 
committee is moving forward with our process is so we can weigh 
in on this.
    Mr. Dicks. But why would we go ahead and try to authorize? 
As I understood it, we are going to try to authorize DNDO 
tomorrow. Why wouldn't we straighten this thing out first and 
then do this?
    It seems to me we ought to wait before we make a decision 
to authorize this until we see what the overall situation is. I 
think we should take a little time here in order to get this 
thing right. And I think the suggestions that have been made 
here today are helpful. But I don't see how we can do that and 
have the kind of consultation we need to have in order to do it 
by tomorrow.
    Mr. Cox. If the gentleman would yield, we are only working 
in subcommittee tomorrow. We intend to be with this problem for 
a long time, and I think we will be with it for the entire 
year.
    Mr. Dicks. So you say we could fix this in full committee?
    Mr. Cox. Absolutely. And not only that, but it will be 
months I think before we go to conference with the Senate.
    Mr. Linder. Dr. Ikle, did you want to comment on that?
    Mr. Ikle. Yes, I am concerned about timing, and I agree 
with you, Congressman Dicks, we should do this very carefully. 
But it took 9 months, in fact, if you count all the phases, 
about a year to get this DNDO organization together. I would 
prefer you let the organization go ahead. It is not that 
formal. It can be changed, amended, something else can be 
added. But let's get started. We have been talking about this 
for 4 years without getting started with the long-term 
research.
    Mr. Dicks. Are you talking about getting started on doing 
the R&D?
    Mr. Ikle. R&D, exactly.
    Mr. Dicks. I don't have a problem with that. I think that 
makes sense.
    Mr. Ikle. You could have that under Homeland Security as it 
is in DNDO, or you could have it in a separate center. Then you 
can sort out whether you want to merge proliferation with the 
interdiction and detection effort.
    Much of the counterproliferation, of course, is done in the 
Department of State, it is foreign policy, and I wouldn't be 
surprised if the Department of State would not want to go along 
with having all of that put under the Homeland Security 
Department.
    But these things can take a long time to sort out, and the 
main thing is to start going with the long-term R&D and with 
some of the exercises that the organization, as it exists, 
could do. I think we all agree exercises are important so we 
can learn more, and then maybe amend it and develop it further 
a year from now.
    Mr. Dicks. Dr. Allison, I just want to make one final 
point: Still the most important thing we could do is to spend 
the money to fund Nunn-Lugar, to accelerate the program to get 
these materials in the Soviet Union under control. What are 
those dates again? We could do it in 3 years or is it 13 years 
under the administration's approach?
    Mr. Allison. I think that the point of greatest leverage is 
locking down or eliminating material at the source, so every 
mile away from that source it is harder for me to find it and 
easier for the terrorists to pursue it.
    In that effort, the Nunn-Lugar money is a very important 
piece of the picture, but the diplomacy and actually 
presidential and secretarial muscle is even more important. 
What President Bush and President Putin did at Bratislava by 
putting nuclear security up at the top of the agenda was a 
great step in the right direction. President Bush should have 
this on his agenda when he goes to Moscow on May 9. He should 
have it on his agenda when he meets with him in July at the G-
8. The question should be, here is a timetable of the securing 
of material that could blow up Moscow and Washington, so where 
do we stand with respect to this?
    As I say, if you are asking how can you explain that some 
objects of art are more secure in the Kremlin armory than 
nuclear bombs, that this is a historical accident and an 
accident, that we shouldn't find it acceptable.
    Mr. Linder. Mr. Lungren, do you seek to inquire?
    Mr. Lungren. I know we only have a few minutes left for Dr. 
Allison, so it looks like the panel here on this side has 
reached a consensus that nonproliferation appears to be the 
number one issue and the most effective way; and, secondly, R&D 
is extremely important.
    So let me talk about the third part, and that is actual 
installation or utilization of nuclear detection devices.
    I am trying to get a sense from the three of you what do 
you think the quality of current technology is, number one; 
number two, does that mean that we ought to put significant 
amounts of money in installing nuclear detectors as they 
already exist, or should that money be better spent for further 
R&D; and, third, if in fact we are going to expand the 
utilization or installation of already existing technology 
based nuclear detectors, where would you emphasize their use or 
their placement right now?
    Dr. Allison?
    Mr. Allison. Excellent question. I would suggest--I will 
give you my answer, but I would say the committee could 
actually ask DHS or even GAO to go and conduct a test to see 
how easy or how hard it is to bring in nuclear material into 
the country through a port and through unmonitored ports; and I 
think the conclusion that you would find from that is that, 
with the current equipment currently operated, the odds of 
finding something, absent an intelligence lead in advance, are 
very, very low.
    Now I don't know exactly, therefore, what the current 
installation program--what problem it is the answer to. I think 
it may be the answer to the problem for why it is that four 
separate people inspect my airline ticket when I go to National 
to see if it matches my driver's license, as if I were 
seriously trying to do something I would not be able to go on 
the Internet buy a phony driver's license, which I can, and 
that I would fail to coordinate it with the name on my ticket.
    I would say this is a great version of dumb security, dumb 
security, and I would say there is a huge number of these, 
huge.
    Now the business argument that can be made for it is this 
is really about reassuring people. People are not too smart 
maybe, and so if the guy inspects them four times they think 
somehow they are more secure. It doesn't work for me, but I 
would say that is the best argument I can make for it, if you 
are trying to make a rational argument.
    So as between installation, other than for reassurance, at 
least on the basis of what I understand about the current 
capabilities for the seekers versus the hiders and seriousness 
about research and development, in which I do believe if we are 
serious about it 5 years from now we will have something that 
works a whole lot better. So actually you could have the NEST 
teams--this would actually be a very interesting discussion and 
probably should not be an open hearing--but have some folks 
from the NEST teams come and explain how hard, how easy it is 
for them to find nuclear material if they know it is in a city. 
They will tell you, as is a fact, it is not a secret about 
this, that if they don't have a clue about which building--say 
you know it is in Congress, you know it is one of the Houses of 
Congress, can you find it? Answer, very, very unlikely. If I 
know it is in Cannon on the second floor, I got a somewhat 
better chance, and again it depends on the shielding.
    Mr. Ikle. I am kidding, but it is becoming dangerous as he 
kept talking.
    You are absolutely right, Graham Allison, on the dumb ways 
of handling it.
    There is a smart angle, in answer to your question, about 
what deployment should we do now with the thoroughly inadequate 
sensors until we have better ones. It does make sense to put 
additional hurdles against the terrorists. Why? Because then 
they have to mount a larger operation. It may take two guys, it 
may take somebody having to get a forged I.D. card, or it will 
take shielding that is heavy, that can be seen. So you increase 
the chances for a normal, human-type intelligence to find 
something. You help our current intelligence capability 
somewhat by imposing obstacles to the movement and introduction 
of these nuclear weapons so that you force the terrorist team 
to mount a larger effort, and if they mount a larger effort, 
your chances of discovering it go up. That is the smart use of 
current installations.
    Beyond that, I think that the thrust of your question--I 
would put most of the resources to improve the detection 
capability on the transformational R&D, as it is called in the 
charter.
    Mr. Lungren. Colonel Larsen.
    Colonel Larsen. As I mentioned earlier, I agree with what 
they said. If I had better technology for detectors, I would 
put it where the stockpile is in the former Soviet states to 
make sure it doesn't leave there. We have got 95,000 miles of 
shoreline and 7,000 miles of borders. I am going to just bring 
it across someplace other than a big port. So detectors should 
be where it is all sitting right now, to make sure it doesn't 
leave there. I think that is the best expenditure.
    Mr. Allison. I apologize very much, Mr. Chairman and 
members, that one of the rules at Harvard is that I have to go 
and teach my class. So I appreciate very much the chance to be 
here with you and would be happy to follow up on an individual 
basis or if people have specific questions, because I think 
what you are about is something hugely important.
    I thank you for the honor of being here.
    Mr. Linder. Thank you for being here.
    Does the gentleman from Massachusetts wish to inquire?
    Mr. Markey. Thank you.
    Mr. Allison. I apologize very much to my good friend and 
person whom I greatly admire, Congressman Markey.
    Mr. Markey. I thank you very much for coming, Dr. Allison.
    So just so you all understand, we are going to be voting on 
this bill tomorrow. The Democrats have yet to see the bill. We 
don't have a copy of the bill in our hands, and we are being 
asked by 5 o'clock this afternoon to submit amendments to a 
bill that we haven't seen yet. So we have to draft the 
amendments, but we don't have the bill that would then make it 
possible for us to amend the bill, but the deadline is 5:00 
this afternoon, which is not a good process for a subject that 
is so important.
    Then, tomorrow, we will hear from the administration on the 
bill, although the Democrats will have already had to have 
submitted their amendments to the bill that we haven't seen 
yet.
    Then after the administration testifies, regardless of what 
they testify to, then we will then mark up the bill immediately 
after the administration testifies without any ability on the 
part of the Democrats to then amend, to formulate any 
amendments, based upon what the administration said.
    So that obviously is a very flawed process on what the 
President says is the single most important issue facing 
America. It just is not the way in which we should be 
conducting this.
    I can understand where that might be the case if we were 
talking about drilling in the Arctic Refuge or some other 
issue, but this is the most important issue. The Democrats 
don't have a copy of the bill. Our ability to amend expires 
tonight at 5:00 without having seen a copy of the bill, and 
then the administration will testify tomorrow.
    Mr. Cox. If the gentleman will yield, I believe the 
gentleman was perhaps not present when Mr. Dicks and I had a 
conversation earlier on this topic. The administration is going 
forward with these proposals in real life.
    Mr. Markey. No, no, no, I heard the whole conversation. I 
am only talking about tomorrow.
    Mr. Cox. Insofar as the procedure is concerned, I don't 
believe it is any restraint on any member offering any 
amendment in subcommittee markup. It is simply a convenience if 
you want your amendment distributed before the hearing, to have 
it turned in by a certain deadline.
    Mr. Dicks. Why can't we see the bill, Mr. Chairman? This is 
a situation where we haven't had a chance to look at the bill.
    Mr. Cox. There will simply be a committee print. There is 
right now before us, it is my understanding--you have what we 
haveSec.  which is to say while you don't have leg language, 
you have something written in plain English which is better, 
because it is in leg counsel. The only reason it is not before 
you in bill language is that it is in leg counsel.
    Mr. Markey. But why wouldn't we mark up on Thursday? In 
other words, why wouldn't we have a bill circulated to all the 
members? Because I don't know if the Republicans have a copy of 
the bill either. I assume they don't.
    Mr. Cox. I will yield to the gentleman, it is his time, and 
we ought to discuss this without burdening our witnesses with 
it, but I am certain that Chairman Linder and certainly I will 
make every effort for all the members on both sides so that we 
can do this collaboratively and collegially. There is no rabbit 
in the hat here, I assure you.
    Mr. Markey. But there is no collaboration, I might say. We 
haven't seen the bill. Our deadline is 5:00. We were told we 
had a guillotine--why have a 5 o'clock deadline? Why not have 
us be able in real time, after the administration testifies 
tomorrow, when the bill is now before us, to then be able to 
amend it based upon what the administration testifies?
    Mr. Linder. Will the gentleman yield?
    Mr. Markey. I will be glad to.
    Mr. Linder. I think the chairman made it clear that the 5 
o'clock deadline was not the end of time to submit amendments. 
You will be able to do that during the markup tomorrow. But the 
5 o'clock deadline was so we could distribute to all the 
members of the subcommittee a copy of what you might propose.
    Mr. Markey. When will we have a copy of the bill?
    Mr. Linder. This evening, I expect. This afternoon.
    Mr. Markey. Before or after the deadline?
    Mr. Linder. We are hoping at 2 o'clock.
    Mr. Markey. And why is it we are going to mark up the bill 
immediately after the administration testifies, instead of the 
members then having the ability, at least for one day, to think 
about what the administration recommended and then trying to 
draft a bill either reflecting what they said or, conversely, 
adjusting what they said because the committee did not react 
positively to their presentation? Why would we immediately go 
into a process that made it almost impossible for us to 
intelligently and thoughtfully respond to what the 
administration's recommendations were to us?
    Mr. Cox. If the gentleman would yield, I really don't want 
to have this discussion before these witnesses, because their 
testimony is very valuable and I think we ought to be inquiring 
of the topic at hand. But I will say that this schedule of 
subcommittee and then subsequently full committee hearings and 
markups is driven by the floor date that we have for an 
authorization bill.
    I think our choice is simply whether we wish to exclude 
this from the authorization bill, which is something that we 
can definitely do, but we have got to be on the floor for our 
scheduled time for an authorization bill in order to be there 
before the appropriators, in order to make sense of this 
process.
    So we will be doing legislation throughout the year. It is 
entirely possible that we will simply excise this altogether 
from the bill if we don't have any committee sense of where we 
want to go with it. I think we need to take this topic up in 
real time simply because it is happening, whether we involve 
ourselves with it or not as the Congress in real time, in real 
life, in the executive branch.
    Mr. Langevin. If the gentleman will yield, I would just 
like to be on record in echoing the sentiments of my 
colleagues, that I don't think it is too much to ask that we 
put this off for a day so we can at least have an opportunity 
to look at the bill and offer responsible amendments and then 
proceed with the process. I think there have been a number of 
questions that have come out of this hearing that have been 
very valuable and helpful and could very easily be included in 
a proper amendment to make the bill even stronger. So I would 
request that the chairman consider that.
    Mr. Linder. I will consider that. The time of the gentleman 
has expired.
    Do the witnesses have just a little bit more time for 
another round of questions?
    Mr. Markey. Mr. Chairman, I beg the indulgence of the 
chairman. I actually didn't use much of my time.
    Mr. Linder. You actually used it all.
    Mr. Markey. I mean, I yielded much of it to the chairman of 
the full committee so he could make his points, and I did defer 
and tried not to interrupt him. The consequence was I then lost 
my time. I would just ask, out of courtesy, because it was a 
colloquy that I felt was important for the committee to engage 
in and the chairman of the committee did participate in it, as 
did the chairman of the subcommittee, that I be allowed to ask 
some substantive questions.
    Mr. Linder. The gentleman is recognized.
    Mr. Markey. I thank you.
    My first question would be, wouldn't you have liked to have 
had a copy of the bill before you came here to testify?
    No, I am going to leave that.
    The administration right now is actually proposing a new 
round of nuclear bunker busters, kind of baby nukes, while we 
are telling the rest of the world they should begin to 
dismantle their nuclear weapons programs wherever they might 
exist. Do you see any problems with that, with the 
administration pushing for a new nuclear weapons system while 
we tell the rest of the world that they should not engage in it 
at all?
    Mr. Ikle. Congressman Markey, on your first question, which 
you withdrew, I did get a copy of official use only 
presidential directive. So since it is official use only, I can 
share it with you, which tells me the essence of the DNDO, 
though not until bill form. On the rest, it is not for me to 
comment on that issue.
    On the second question you raised about the earth-
penetrating nuclear weapons, contrary to what many of my 
friends or colleagues in the Department of Defense argue, not 
all of them, I am not in favor of it, for the following reason: 
Less that it will stimulate proliferation, I don't think that 
is one of the results, but more that it is a waste of effort 
and money. Because if the President should decide to use a 
nuclear weapon to go after a bunker that contains nuclear 
weapons, it is almost 100 percent sure that the nuclear weapon 
will first have been used against us.
    I can't imagine the current or future Presidents wanting to 
terminate the non-use period that lasted for 60 years to go 
after an uncertain bunker. I can't imagine that decision.
    But if we have been attacked, heaven forbid, by a nuclear 
weapon, say from Korea, a missile, or they attacked Japan, then 
I don't think we would care that much about using one of the 
existing large yield weapons, even though they cause much more 
casualties than we would ever want to cause.
    So this fine-tuned, clean nuclear weapon use for that 
contingency seems to be a very unlikely event and therefore not 
worth the cost and effort.
    Mr. Markey. Thank you.
    Colonel Larsen, I don't know if you followed the story that 
ABC was able to bring into the country several kilograms of 
depleted uranium. You probably followed that story.
    My question to you is, while I am supportive of new 
detector technology or screening algorithms as part of long-
term efforts to improve our capabilities in this area, I think 
that the Department of Homeland Security should be focusing 
much more closely on short-term, less-expensive solutions, such 
as moving the detectors closer to the sample and other 
engineering measures that would improve the signal-to-noise 
ratio. Do you agree with that?
    Colonel Larsen. The problem is, sir, I don't know how to 
move it closer to the sample, I guess is the problem. Six 
million containers come in this country. How are you going to--
when I put it inside that small box, inside that 40-foot steel 
container, the physics is not there today to get that signature 
you are looking for.
    Perhaps in the future--I am not the physicist here--there 
would be some technology, but today--sat in this same seat in 
February for the Budget Committee, and I pointed out to them 
the gamma detectors outside the building, you know, are not a 
very good investment of many taxpayer dollars. When they get 
the nuke this close, who cares if we know it is here? It is too 
late. The fact is, that is pretty much the case with our ports 
today.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Linder. I would like to ask both of you this question: 
Some years ago, the government got involved in a very expensive 
project to outline and discover the human genome, very 
important research, and it will be very valuable in the future 
for health care and medicine. After many billions of dollars 
were spent, an upstart company with private investments and 1/
20th of the money beat them to the task. Are there private 
investors out there who are seeking to make a lot of money off 
detection technology moving ahead on the challenge and do they 
have the latitude, I guess, to do that?
    Mr. Ikle. There are some ideas that you get from private 
companies and even from graduate students in physics. They 
mostly have to do with the deployment of the sensors, how to 
cope with the millions of containers and so on. Some are very 
clever ideas, and those should be garnered by the long-term 
transformational research project. They should have eyes and 
ears open to the physics professors in all the universities who 
can contribute, even to the students, and certainly to private 
companies for the deployment.
    For the essential part, it seems to me unlikely that a 
private company could do the research with the knowledge about 
how you can build a nuclear explosive and the experience with 
the plutonium and enriched uranium that you do have accumulated 
in the labs. So I think is a contributory role, but it is not 
the central, leading role, in my view.
    Colonel Larsen. I am not sure I am qualified to answer that 
one, what the civilian capacity is. The only concern I would 
have is all of the knowledge required to develop those sorts of 
new detectors, if that knowledge somehow got to the bad guys, 
then they would know how to counter them. So I think I agree, 
back to what we originally said, was the labs is probably the 
best place for the hard science, and then turn it over perhaps 
for the production capability.
    Mr. Ikle. Exactly. One more point, forensics was mentioned 
as important. We all agree for deterrence it is essential, and 
that gets very much into the classified domain and it has to be 
done in a centralized place in the U.S. Government.
    Mr. Linder. You mentioned transformational research three 
or four times this morning. Can you give us an indication in 
this open session in which direction it is going in?
    Mr. Ikle. That name is in the charter which--that was 
worked on for a year, and that is why I use it, because people 
are familiar in this area. Which way is it going this year?
    Mr. Linder. Which direction the research is headed for? Is 
it better detection? What are we looking for?
    Mr. Ikle. The ability to detect a plutonium-based weapon at 
much greater distances, at much greater speed, a combination of 
the two, so you can run 10,000 containers through a gate and 
you can check each one with enough confidence of finding it. 
The ability, which we do not have now, to detect uranium-based 
bombs, which are more difficult to detect because uranium 
doesn't emit these signals.
    The ability beyond this is a point we hadn't mentioned. It 
is very important to use active interrogation. You send 
radiation into the container. You have to do that carefully so 
you don't hurt the crews on the ship and so on. But you have to 
be prepared for it.
    We may get kind of a 9/11 wake-up call in this area, and we 
are certainly willing to do much more than we want to do now, 
which is do things with certain political risks. Then you have 
to be technologically prepared to do this active interrogation 
that can aid you much further in finding things.
    So it is a combination of these new initiatives which 
intellectually have been thought about but haven't been worked 
out yet so we can use it.
    Mr. Linder. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman; and again, 
gentleman, I want to thank you for your testimony, because I 
think a number of important things have come out of this 
hearing today. In fact, a lot of questions have been raised.
    I would like to get to one of the most important in my 
mind, which is, before we rush to create and authorize this 
DNDO office, I think the last thing we want to do is take a 
feel-good measure and lead ourselves to believe we are actually 
accomplishing something of substance.
    So the question I have is, would we be better served by, 
instead of authorizing a DNDO office, keeping its 
responsibilities, dividing it up and keeping its scientific 
research work, the R&D work, in the S&T directorate under 
Homeland Security, and would we be better off keeping the other 
responsibilities of DNDO in the National Counterproliferation 
Center in working with that, rather than creating another layer 
of bureaucracy? Are we reinventing the wheel, so to speak, by 
moving to create and authorize a DNDO office?
    Mr. Ikle. This is an important question, and the S&T 
office, of course, has in a way the responsibility now in 
Homeland Security. But while they have done very useful things, 
they have not moved ahead on a vigorous transformational 
research program. They signed off.
    I am sure they were represented in this interagency 
drafting process of the DNDO charter that we have in front of 
us, and they signed off on this. It is repeated three times in 
that charter, the importance to do the transformational 
research under the aegis of DNDO.
    Why is that more advantageous? It brings in the Department 
of Defense as a direct link. The Department of Defense has 
considerable research experience and research capabilities and 
the experience in guiding complicated research that has to go 
on for many years that can help the people in S&T to do it 
effectively. It brings in the Department of Energy in a more 
direct way than it is now brought in Homeland Security. 
Homeland Security is not a research establishment so much as a 
conglomerate of the agencies that existed before.
    For this very important, long-term research effort, you 
want to get all the help you can get from the Department of 
Energy, the Department of Defense; and I think DNDO does pull 
this together. So I would go the DNDO route.
    Again, I think this could even be an outcome of your 
legislative deliberations. It can be a vehicle to get started 
next week or next month at least or this summer. They are set 
to get started. Let them get started, and a year from now you 
can make a different bill or put it in the bill.
    I am not even sure DNDO requires, Mr. Chairman, requires a 
bill. It is an interagency organization that would be helped by 
legislation, but it may not be essential for its start. I don't 
know. It is not my expertise.
    Colonel Larsen. I think it is a very interesting question; 
and the real answer to it is, who do you want in charge of 
preventing a nuclear attack on America? Do you want it to be 
the Director of National Intelligence? The current bill says--I 
don't know, the Chairman said something about he wasn't sure 
where the National Counterproliferation Center would sit. The 
piece of legislation I read said that the Director of the 
Counterproliferation Center would work directly for the DNI. 
That tells me where it would be. So should that be the office 
over in intelligence that has the biggest responsibility for 
preventing a nuclear attack on America, or should it be in the 
Department of Homeland Security? When you answer that question, 
that tells you where it should be.
    Mr. Langevin. If you could just finish that point, what is 
your recommendation on that point? Who should be responsible?
    Colonel Larsen. I must tell you, I found out about this 
hearing on Friday, and I spent a lot of time thinking about it 
over the weekend, and I think frankly I need a little more time 
to think about that. I don't want to shoot from the hip, 
because I think it is such a critically--I would be happy to 
take that for the record and think about it for a week and send 
you something back, because I think it is a critically 
important question.
    What I do know is, I would like one organization, as much 
as possible, in charge. I know you can't perfectly do that in 
this town.
    Colonel Larsen. But I would like--I think this committee 
would like to be able to call one person up here and say, what 
are you doing to prevent a nuclear attack.
    Mr. Langevin. I agree with that and I would like you to 
take that for the record if you could. I would be interested in 
hearing your input.
    Mr. Ikle. One suggestion here. We may have--I am sure it is 
on this side, not on your side--worked under some confusion 
about the Nonproliferation Center. The way I understand it, it 
is to do better work on intelligence collecting regarding 
proliferation, the Khan network, what the Libyans are doing, 
what Iran is doing. There has been a--as you know, a 
proliferation center in the CIA for a long time. And this would 
be to elevate it. That is, the intelligence, not the diplomatic 
work that is done by the State Department on proliferation, not 
the interdiction work that is done by the Defense Department. 
And we have been talking about this proliferation center as if 
it would do--everything was our mistake--as if it would do 
everything on proliferation. The way it is understood it is 
intelligence, and I think it should be left in the intelligence 
organization. Then the intelligence has to feed into DNDO, DOD, 
State Department. And as to who is in charge for preventing a 
nuclear attack on the United States, I think it is the 
Commander in Chief.
    Colonel Larsen. I don't think that is quite the way the 
bill reads, though. That may have been the intention.
    Mr. Langevin. I want to thank you gentlemen for your 
testimony. And on that point, Colonel Larsen, what you stated 
on that question that I posed to you, that you needed about a 
week to think about it. I think that is another indication as 
to why we should not be marking up the bill tomorrow and we 
should have additional time to work through this issue.
    Colonel Larsen. I don't mean to be hurting my nonpartisan 
credentials here, but I really would. I would like to give you 
a good answer to that and I just don't feel like I want to do 
that right at this moment.
    Mr. Langevin. Thank you.
    Mr. Linder. Mr. Lungren, no questions.
    Mr. Markey.
    Mr. Markey. I thank you so much, Colonel, for your comment. 
The ``congressional expert'' is an oxymoron. We are only 
experts compared to other Congressmen. Once a real expert shows 
up, then we are not experts anymore. And that is why we have 
hearings and that is why we have the administration in 
tomorrow, so that we can hear from the experts on the subject, 
and, then as congressional experts, try to make the best 
judgement which we can. And so that is the--you know, the kind 
of conundrum that we have right now in terms of the processing 
of this legislation.
    What are the other measures, in your opinion, that the Bush 
administration should be taking to minimize the risk that 
nuclear weapons material could be smuggled into the U.S. for 
use against us in a terrorist attack?
    Could you just give us, could you each give us your 1-
minute summary list of the measures you would like the Bush 
administration and the Congress to take to keep these materials 
out of our country? Just tick them off for us.
    Colonel Larsen. I can give you the short list for me, is 
there is more than 130 research reactors out there that have 
highly enriched uranium. The one at the University of Wisconsin 
could make three Hiroshima-sized bombs. I think we ought to 
police that up as quickly as possible. Most of that is outside 
of the United States.
    The things that I think all three of us have talked about 
in the former Soviet states is securing that and eliminating it 
when possible, the cooperative threat reduction sort of 
programs that I don't feel that have perhaps had the priority 
that they should have.
    Mr. Ikle. I would agree and add to that that it doesn't 
make sense to free the export of highly enriched uranium for 
creating medical supplies where it is not necessary. That is an 
arcane provision. Congressman Markey, you have been involved in 
stopping that and I am on your side on that. It is totally 
unnecessary, the export of HEU to Canada for creating medical 
supplies. I think it was called the Burr amendment last time 
around. It is in the energy bill that is floating around there.
    Mr. Markey. And why is that dangerous?
    Mr. Ikle. Well, it is not super dangerous, but it is just 
not needed. It is not the right signal to give. And on the HEU 
and research reactors, I was trying to get rid of those when I 
was director of the Arms Control Agency in the 1970s, and we 
are still not there. We have been very slow moving, and I hear 
from back channels that the Department of Energy is still 
slowing it down again.
    So these are easy things to do. They are probably not the 
most important. The important ones have been mentioned, about 
exerting influence and pressure on the Government of Russia to 
protect itself and us by better locking up the systems, the 
fissile material. And upgrading the intelligence; that has been 
already mentioned in the WMD Commission, and hopefully will be 
implemented.
    And then last, let me mention it once more, the long-term 
research to give us better tools than old-fashioned radiation 
detectors.
    Mr. Markey. Thank you.
    Mr. Linder. Mr. Dicks.
    Mr. Dicks. Tell us about this global nuclear detection 
plan. They talk about an architecture for global detection 
beyond just doing research and development on what we are going 
to do in the United States. Secretary Ikle, what do you see as 
part of this global architecture?
    Mr. Ikle. I am afraid I have not seen a description of it. 
I am not sure I can answer that.
    Mr. Dicks. Well, what should it have?
    Mr. Ikle. Well, one is the intelligence that is 
multifaceted. Human intelligence has been very important for 
the Khan system; other events that helped us unravel the Libyan 
connection, and then one led to another. That is one of the 
achievements of the Intelligence Community.
    And then our failures, which the WMD Commission and the 
classified appendix--which I haven't seen, but I am sure you 
can consult--get into.
    So that is the general intelligence field, all sources, 
overhead, HUMINT, political intelligence, what have you.
    And then once we have more powerful detectors, 10 years 
from now, hopefully, we might then place those in many areas 
and find things that are moving that shouldn't be moving. But 
that cannot be designed yet, because we don't know how good 
these improvements will be 10 years hence
    Mr. Dicks. This also, unless you are doing it in space, 
would require the cooperation of other countries. And I think 
this is a subject that hasn't been mentioned much today. But if 
you think about intelligence, one of the things that you must 
have is cooperation between the Central Intelligence Agency and 
all these other international agencies, doing similar work in 
their own countries. And to me, that kind of cooperation is 
extremely important if you are going to have, as you mentioned, 
the kind of HUMINT intelligence necessary to be effective here.
    Colonel Larsen. It would also take cooperation within the 
U.S. Government. It was not long ago, a matter of days I would 
say, that a container got hit overseas for a radiological 
thing, and it was 2 years later until DHS found out about it. 
So part of that architecture is just communicating with our--
inside our own government. That certainly needs to be in place.
    Mr. Dicks. Should TTIC be involved here, too? I mean, this 
is the intelligence--.
    Colonel Larsen. TTIC doesn't exist anymore. It has now been 
taken over by the National Counterterrorism Center, I think. It 
is actually gone now.
    Mr. Dicks. That is good to know. So in the legislation, 
TTIC is taken out and this new thing represents the entire--has 
this become the entire intelligence function for the 
Department?
    Colonel Larsen. Talking to the folks who--I don't work 
there, but talking to the folks who work out there closely, 
they see good progress there, and that they actually have a 
National Joint Terrorism--you are familiar with the JTTF 
system. Well, they have the National JTTF sitting out there, 
and there is a lot of communication.
    Now, there is still, you know, those problems about, well, 
you know, you don't have the right clearance I need for my 
agency. We live in tribes in this town, you know, and NSA is 
one tribe and CIA is another tribe and DOD is another tribe, 
and sometimes we don't communicate well between those tribes. 
They are trying to improve it out there, but I think that is a 
step forward out there. But TTIC is gone, sir.
    Mr. Dicks. All right. Thank you, Mr. Chairman
    Mr. Linder. That concludes this morning's hearing. I want 
to thank both of you for spending a couple of hours with us. 
The information you gave us is valuable and we are grateful. 
Thank you.
    [Whereupon, at 11:12 a.m., the subcommittee was adjourned.]


         DHS COORDINATION OF NUCLEAR DETECTION EFFORTS, PART II

                              ----------                              


                       Wednesday, April 20, 2005

                          House of Representatives,
              Subcommittee on Prevention of Nuclear
                             and Biological Attack,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 3:00 p.m., in 
Room 210, Cannon House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Shays, Simmons, Cox (ex 
officio), Langevin, Dicks, Harman, Norton, Christensen, and 
Thompson (ex officio).
    Chairman Linder. The committee will come to order. I would 
like to welcome our distinguished witness, who it is hoped will 
shed some light on the proposed Domestic Nuclear Detection 
Office within the Department of Homeland Security. Currently 
the full task of protecting our Nation from a nuclear incident 
is shared by the Departments of Defense, Energy, Justice and 
State.
    The Homeland Security Act of 2002, however, requires the 
Department of Homeland Security to coordinate the government's 
efforts to identify and develop countermeasures to radiological 
and nuclear terrorist threats and the President's fiscal 2006 
budget proposal proposes $227 million funding for the DNDO 
within the Department.
    It is no secret that the terrorists would not hesitate to 
acquire and use a nuclear device on American people. In fact it 
was just reported this morning in the press that Abu Zarqawi 
may have already obtained a nuclear device or bomb. Given the 
radioactive nuclear threat, this government should take very 
seriously its responsibilities in the area of nonproliferation 
and counterproliferation and ultimately to reject its 
traditional turf battles and bureaucratic obstacles. I, for 
one, refuse to put the American people in the position, again, 
asking what if.
    Instead I expect this subcommittee to work toward ensuring 
that the relevant Federal agencies operate on the same page. We 
will be asking, among other questions, whether DNDO can take 
all of these competing interests and coordinate their 
respective efforts. Ultimately, we must all work toward a 
common goal, which is to ensure that a nuclear incident in the 
United States remains a worst case scenario and not a reality.
    I now recognize my ranking member, Mr. Langevin, for a 
statement.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Oxford, welcome, 
and I look forward to hearing your testimony here today.
    This hearing is the second of the Department of Homeland 
Security proposal to create a Domestic Nuclear Detection 
Office. After hearing from our panel yesterday, I think we can 
all agree that the nuclear terrorist threat is real and is 
going to require both short and long-term solutions. According 
to Secretary Chertoff, the DNDO will be the primary office 
responsible for developing these solutions, including 
overseeing the deployment of radiation portal monitors at our 
ports and border crossings to developing a nuclear, a global 
nuclear detection architecture.
    Secretary Chertoff should be commended for taking the steps 
to create this office. But after hearing from our witnesses 
yesterday, it is clear that you have some major challenges 
facing you, Mr. Oxford.
    I look forward to hearing how the Department plans to 
address these challenges, specifically the administration's 
budget request, which seems to fall far short of what is 
required to conduct the necessary research and development 
programs to ensure our country has the best nuclear detection 
equipment deployed to our ports of entry.
    Second, what is the administration's domestic nuclear 
detection strategy and how does the DNDO fit into the larger 
picture? Also, given the large S&T role that the DNDO is 
expected play, what value added will this office bring to DHS 
or are we just creating another level of bureaucracy?
    How will DNDO interact with the National 
Counterproliferation Center? I believe our government needs a 
national office to focus on the nuclear terrorist threat but 
without the appropriate structure, adequate funding and a 
detection strategy, the DNDO will not reach its full potential 
to be the policymaking office Secretary Chertoff intends it to 
be. As a result, our Nation will not be as secure as it must be 
from the deadliest of all threats that we currently face.
    I look forward to hearing our witness address these and 
other issues of interest to our subcommittee members.
    I would also like to take a moment to thank our chairman 
for his responsiveness to the concerns that were raised 
yesterday about the proposed timing of the markup of the DNDO 
legislation. Several of us felt that it was important to allow 
more time to hear from our witnesses and incorporate their 
suggestions and concerns into our consideration of the 
legislation. I am pleased that the markup has been postponed to 
accommodate a more meaningful deliberation on this issue. I 
appreciate Chairman Cox and Chairman Linder's willingness to 
work with us on this issue.
    Again, Mr. Oxford, I want to welcome you here today. Thank 
you for being with us and I look forward to your testimony.
    Thank you, Mr. Chairman, I yield back.
    Chairman Linder. Does the ranking member of the full 
committee seek to make a statement?
    Mr. Thompson. Yes, sir, Mr. Chairman, very briefly.
    I look forward to the testimony of Mr. Oxford, which as you 
know is a continuation of hearings we had yesterday. I also 
want to compliment our chairman for hearing the concerns of the 
committee and making adjustments in some of the meetings for 
the committee in the future. But I also want to hear from Mr. 
Oxford how he expects to operate this administration some $1 or 
$2 million short of what actually is required to operate. The 
DNDO has potential, but there are some conflicts. I look 
forward to working with this committee on trying to separate 
those conflicts so we can move forward.
    Apart from that, Mr. Chairman, I look forward to the 
testimony.
    Chairman Linder. I thank you.
    Mr. Vayl Oxford is Acting Director of the Domestic Nuclear 
Detection Office, DNDO, reporting to the Secretary of Homeland 
Security. He was also Acting Director of Department of Homeland 
Security Advanced Research Project Agency and the Department of 
Homeland Security. Prior to his appointment to DHS in October 
of 2003, Mr. Oxford served as the Director for 
Counterproliferation at the National Security Council. His 
responsibilities include the establishment of the national 
policy and priorities for CP that has been codified in the 
national strategy for combating weapons of mass destruction and 
in the President's proliferation security initiative policy.
    Mr. Oxford, we are happy to have you. Welcome. Any 
statements you may have we would make part of the record 
without objection, and you may proceed in any way you seek.

  STATEMENT OF VAYL OXFORD, ACTING DIRECTOR, DOMESTIC NUCLEAR 
                        DETECTION OFFICE

    Mr. Oxford. Good afternoon, Chairman Linder, Ranking Member 
Langevin and distinguished members of the subcommittee. It is 
my pleasure to come before you today to share with you our 
progress in establishing the Domestic Nuclear Detection Office 
within the Department.
    Protecting the United States from nuclear threats is a job 
the Department of Homeland Security cannot work alone. I would 
first like to thank our partners in the Department of Defense, 
Department of Energy, the Federal Bureau of Investigation and 
the State Department for their help in establishing DNDO, and 
for their commitment for ensuring its future success.
    President Bush has made strengthening the Nation's 
capability to detect and interdict nuclear weapons or illicit 
nuclear materials a critical national priority. To defend 
against this threat we must develop a robust layered defense, 
each layer designed to reduce the terrorist's ability to use 
such threats against us. The Nation must move toward 
strengthening this defense by developing and deploying an 
integrated detection and reporting infrastructure and to 
continue to improve that infrastructure over time.
    On April 15, 2005, just last week, the President directed 
that the Domestic Nuclear Detection Office be established 
within DHS under the authority, direction and control of the 
Secretary of Homeland Security.
    The DNDO is a jointly staffed national office created to 
establish strong linkages across the agencies and consolidate 
efforts within DHS for the deployment of a national nuclear 
detection system. The mission of the DNDO is to serve as the 
primary entity to ensure that the Federal Government develops, 
acquires and supports the deployment of a domestic system to 
detect and report attempts to import or transport a nuclear 
device or fissile or radiological material intended for illicit 
use. The DNDO will facilitate collaboration among members of 
the interagency and components of DHS and bring together 
developers, operators and information providers to produce a 
single entity focused on this threat.
    The DNDO's immediate strategic objectives include 
conducting an aggressive evolutionary and transformational 
development and research program to improve detection 
capabilities, to develop the global architecture 
infrastructure, to establish mechanisms for effective sharing 
and use of nuclear detection-related information and 
intelligence to maintain continuous awareness: and to establish 
standards, response protocols and training across the Federal, 
State and local levels.
    Some of our key challenges within the mission and 
interagency nature of DNDO would provide a unique opportunity 
to fully integrate the government's approach to a serious 
threat by combining research, development, acquisition and 
operational support responsibilities.
    Key challenges are, the nuclear detection research 
development test and evaluation which will emphasize 
acceleration of research, development and the fielding of 
nuclear detection capabilities.
    To do this, DNDO will manage two separate RDT&E activities. 
The first will focus on the near term, which is defined as a 
0--to 5-year time period, to develop capabilities that directly 
meet operational user needs to detect materials of concern. A 
major component of this development process is the focus on 
high fidelity test and evaluation, as well as user in the loop 
operational testing.
    One of DNDO's major goals is to fully validate systems 
performance of legacy and newly developed systems so that we 
have a complete understanding of the effectiveness of the 
detection architecture.
    DNDO will also manage a transformational research and 
development initiative intended to provide high payoff advances 
in capabilities. This transformational R&D will not be driven 
directly by operational requirements. Rather, these 
improvements are intended to provide capabilities that could 
potentially be so great as to provide new operational concepts 
or leap ahead technical capabilities.
    A second key challenge is the development of the global 
detection architecture. The DNDO will develop the global 
detection architecture to be highly effective against the 
nuclear threat while continuing to seek the goal of not 
impeding commerce or the flow of people.
    This development will be done with active input and 
collaboration with our interagency partners, who in turn will 
be responsible for the deployment of detection equipment 
overseas and around the Nation's military installations. DNDO 
is responsible for developing an overall global architecture 
that assesses and links the programs across the departments to 
ensure that the Nation proceeds with a single comprehensive 
prevention and detection strategy.
    A third key challenge is a critical important goal of DNDO, 
and that is in the area of information analysis. In this case 
our goal is to enhance effective sharing and use of nuclear 
detection-related information and intelligence and to integrate 
this information with information from all mission related 
deletion systems to provide a greater overall awareness. By 
fusing international and domestic information streams and 
intelligence information, the DNDO will be able to provide a 
better informed decision making environment.
    Additionally, it is the vision of this office to have an 
aggressive red teaming assessments activity that fully assesses 
the operational and technical performance of the deployed 
architecture in order to offer insights that lead to more 
effective systems and operational procedures.
    In conclusion, the effort to counter the threat of a 
nuclear attack against our Nation is one of our most critical 
missions. The establishment of the DNDO will greatly increase 
our ability to address this mission through a consolidation of 
national efforts, the establishment of a global architecture 
and deployment strategy and for providing assurance of 
appropriate alarm resolution and response capabilities.
    The vision for DNDO is to set the global layered nuclear 
defense strategy and architecture for nuclear detection and 
reporting and to be fully aware of the efforts of the U.S. 
Government across the spectrum of nuclear defense.
    This concludes my prepared statement. With the committee's 
permission, I request my formal statement be submitted for the 
record.
    Mr. Chairman, Congressman Langevin and members of the 
subcommittee, I thank you for your attention and I will be 
happy to answer any of your questions at this time.
    [The statement of Mr. Oxford follows:]

 Prepared Opening Statement Mr. Vayl Oxford, Acting Director, Domestic 
       Nuclear Detection Office, Department of Homeland Security

Introduction
    Good afternoon, Chairman Linder, Ranking Member Langevin and 
distinguished members of the subcommittee. It is my pleasure to come 
before you today to share our progress in establishing the Domestic 
Nuclear Detection Office (DNDO) within the Department of Homeland 
Security.
    Protecting the United States from nuclear threats is a job that the 
Department of Homeland Security cannot succeed at working in isolation, 
and I first want to thank our partners in the Department of Defense, 
the Department of Energy, the Department of State, and the Federal 
Bureau of Investigation for their tireless dedication to establishing 
the DNDO and their commitment to supporting the Office to ensure its 
success.

DNDO Mission and Objectives
    President Bush has made strengthening the Nation's capability to 
detect and interdict nuclear weapons or illicit nuclear materials a 
critical national priority. Few will argue with the view that the 
threat posed by terrorists possessing nuclear or radiological weapons 
is one of the gravest that confronts the Nation. To defend against this 
threat, we must develop a robust layered defense, each layer of which 
must reduce a terrorist's ability to use such threats against us. The 
Nation must move toward strengthening this defense by developing and 
deploying an integrated and robust detection, reporting, and response 
infrastructure, and continue to develop improvements to this 
infrastructure over time.
    In recognition of the magnitude of the danger posed by the nuclear 
threat, multiple organizations within the Department of Homeland 
Security and across other Departments have initiated programs to 
prevent these weapons from being used against the Nation and its 
interests. While these efforts are each individually important 
components to defend against the threat, it is now necessary to 
integrate our Nation's nuclear detection capability that guarantees a 
coordinated response. To optimize and advance these efforts, on April 
15, 2005, the President directed that the Domestic Nuclear Detection 
Office (DNDO) be established within DHS, under the authority, 
direction, and control of the Secretary of Homeland Security.
    The DNDO is a jointly-staffed, national office created to 
consolidate efforts within DHS and establish strong linkages across the 
agencies for the deployment of a national nuclear detection system. The 
mission of the DNDO is to serve as the primary entity to ensure that 
the Federal Government develops, acquires, and supports the deployment 
of a domestic system to detect and report attempts to import or 
transport a nuclear device or fissile or radiological material intended 
for illicit use. In its creation, it not only will facilitate 
collaboration among members of the interagency and components of DHS, 
but, more importantly, among the developers, operators, and information 
providers to produce a single entity focused on this threat.

    The DNDO has the following strategic objectives:
        <bullet> Conduct an aggressive evolutionary and 
        transformational research and development program to improve 
        probability of detection by integrating and deploying current 
        technologies and improving those capabilities over time;
        <bullet> Develop the global detection architecture and ensure 
        linkages across Federal, State, and local agencies;
        <bullet> Enhance the effective sharing and use of nuclear 
        detection-related information and intelligence in conjunction 
        with other Federal Government information sharing activities;
        <bullet> Maintain continuous awareness by analyzing information 
        from all mission-related detection systems;
        <bullet> Enhance the nuclear detection efforts of Federal, 
        State, and local governments and the private sector to ensure a 
        coordinated response; and
        <bullet> Establish standards, response protocols, and training 
        across the Federal, State, and local levels to ensure that 
        detection leads to timely response actions.

Key Challenges:
    The mission space of the DNDO provides a unique opportunity within 
DHS across the Federal Government to more fully integrate the 
counterterrorism community's approach to a serious threat. DHS will 
work holistically to combine research and development, acquisition, and 
operational support into a single office. By bringing together all of 
these efforts as well as the joint activities within our interagency 
partners, the DNDO will be able to ensure that the technology 
requirements of operational entities are efficiently prioritized and 
addressed. Moreover, DNDO will ensure that technologies under 
development are quickly transitioned to the field. Further, all 
technologies being deployed will have the necessary accompanying 
training materials, and response protocols will be established and 
adopted prior to deployment.This will ensure that deployed equipment is 
properly used and alarm information is reported to response agencies 
when appropriate. More importantly, this office is charged with the 
responsibility of working with our partners to establish effective 
information and intelligence sharing mechanisms for nuclear detection 
information that span the intelligence community, law enforcement 
agencies, and other government agencies. Coupled with this 
responsibility is the focus on establishing and maintaining continuous 
awareness by analyzing information from all DNDO mission-related 
detection systems both domestically and internationally.

Nuclear Detection Research. Development. Test. and Evaluation:
    The DNDO will place a large emphasis on accelerating the research 
and development of nuclear detection technology. To accomplish this, 
the DNDO will manage two separate RDT&E programs, each with a unique 
and complimentary mission. The first of these efforts provides near-
term (five years or less) improvements in deployed capabilities, 
directly meeting requirements of operational users.
    The DNDO has established a Joint Requirements Board with membership 
including each of the operational users within DHS and across the 
interagency to formalize the process of collecting and prioritizing 
technology requirements. These requirements directly drive the goals of 
this evolutionary RDT&E program, focusing on providing spiral 
development of current capabilities.
    These programs will focus on improving and rapidly transitioning 
capabilities that address threat materials of greatest concern. A major 
element in the DNDO development process is the focus on high-fidelity 
test and evaluation as well as user in the loop operational testing. 
One of the office's major goals is to fully validate systems 
performance of legacy and newly developed systems so that we have a 
complete understanding of the effectiveness of the detection 
architecture. When coupled with red teaming efforts, we will be able to 
effectively assess the health of our national nuclear detection system.
    Meanwhile, the DNDO will manage a large transformational research 
and development program intended to provide high-payoff advances in 
capabilities. This transformational R&D will not be driven directly by 
operational requirements. Rather, these improvements are intended to 
provide new capabilities that could potentially be so great as to 
provide new operational concepts for current system components. As 
these transfonnational technologies mature, they would likely be 
transitioned into an evolutionary systems development program.

Global Detection Architecture:
    A second objective of the DNDO will be to develop the global 
nuclear detection architecture that will be highly effective against 
the threat and still avoid impeding the legitimate flow of commerce and 
people. This development will be done with active input and 
consultation with interagency partners responsible for deployments of 
detection equipment overseas and around the Nation's military 
installations. This detection architecture must be a multi-layered in 
nature. It must start with an understanding of the international 
programs and agreements that help secure all weapons-usable materials 
overseas, and continue with layers of nuclear detection capabilities at 
international borders and ports-of-departure overseas, domestic ports-
of-entry and the Nation's borders, and, finally, within the Nation and 
around high-risk or high-value locations. The DNDO recognizes the great 
strides that have already been made, including the Department of 
Energy's Materials Protection, Control and Accountability, Second Line 
of Defense, and MegaPorts programs, the Department of Defense's 
Cooperative Threat Reduction Program, the Department of State's Export 
Control and Border Security Program and Nonproliferation and 
Disarmament Fund, and multiple DHS efforts to develop capabilities for 
detection, interdiction, search, and response domestically, such as the 
DHS Radiation Portal Monitor program and pilot programs in New York and 
Charleston. While this is by no means intended to be a comprehensive 
list of the government's efforts, it underscores the importance that 
the Nation has placed on defending against this threat. The DNDO is now 
responsible for developing an overall global architecture that assesses 
and links these programs in an effort to ensure that the Nation 
proceeds with a single, comprehensive prevention and detection 
strategy.

Information Analvsis:
    An equally important goal of the DNDO is to enhance the effective 
sharing and use of nuclear detection-related information and 
intelligence, and to integrate this information with information from 
all mission-related detection systems to provide a greater overall 
awareness. By fusing the international and domestic information streams 
and intelligence information, the DNDO will be able to provide a 
better-informed decision-making environment, enabling more effective 
alarm resolution, trend analysis, and threat awareness. This 
information analysis capability will be integrated with a detailed 
understanding of the systems performance of existing and to be deployed 
systems to increase our awareness and confidence in the global 
detection capability and effectiveness. Additionally, it is the vision 
of this office to have an aggressive red teaming system assessment 
activity that fully assesses the operational and technical performance 
of the deployed architecture in order to enhance our awareness of the 
adequacy of our screening process and to provide insights that lead to 
more effective systems and operational procedures.

DNDO FY 2006 Budget and Key Initiatives
    As a new office, the DNDO-related budget for Fiscal Year 2005 
includes approximately $100 million through the Directorate of Science 
and Technology appropriated funding for radiological and nuclear 
countermeasures and will oversee $80 million appropriated to Customs 
and Border Protection for the Radiological Portal Monitor Program. The 
President's FY 2006 Budget includes requests for DNDO-related 
activities through the Directorate of Science and Technology ($227 
million), and will oversee resources requested for Customs and Border 
Protection ($125 million), and the U.S. Coast Guard ($7 million)--for a 
total of $359 million.Additionally, the Office of State and Local 
Government Coordination and Preparedness request includes $600 million 
for Targeted Infrastructure Protection grants, some of which may be 
allocated to DNDO-related State and local equipment acquisition based 
on the results of the architecture development activity.
    The budget request includes $5 million to supplement the joint 
development of a global nuclear detection architecture that will 
support the acquisition and deployment of the domestic nuclear 
detection system.
    The request includes approximately $12 million to establish systems 
engineering efforts to integrate research, development, testing, and 
acquisition across the program. This includes the development of a 
comprehensive systems engineering master plan.
    A total of $80 million will be directed toward ongoing evolutionary 
research and development efforts for improved passive and active 
detection technologies and support systems, and an additional $82 
million will allow for the initiation of a major program on 
transformational research and development to potentially lead to 
revolutionary changes in detection capabilities.
    Approximately $26 million of the request is for technical and 
operational testing and systems effectiveness assessments. This 
includes construction and operation of the Radiological and Nuclear 
Countermeasures Test and Evaluation Complex (Rad/NucCTEC), the capacity 
for additional operational test and evaluation, exercises, and 
demonstrations, and the formation of a red teaming and net assessments 
program.
    Nearly $23 million in funding is to be directed for technical 
support to operations in the areas of expert analysis and support for 
alarm resolution; collection and coordination of intelligence and 
detection information for technical analysis, threat assessment, 
decision support, and archiving;and development of technical standards, 
draft protocols, procedures, and concepts of operation.
    Finally, the $125 million included as part of the CBP request and 
the $7 million requested by the U.S. Coast Guard will be devoted to 
acquisition of equipment to be deployed by the respective agencies, 
consistent with the overall strategy developed by the DNDO.

DNDO Organization
    To meet this expanded mission and address the key challenges I have 
outlined, the DNDO will consolidate functions within DHS and establish 
strong linkages across the interagency. Multiple agencies share the 
resources and expertise necessary for the success of the office, and, 
while DNDO will be located within DHS, it will be jointly staffed with 
detailees from several Departments.

Relationship with DHS and Interagency Partners
    The vision for DNDO is to set the global strategy and architecture 
for nuclear detection and reporting and to be fully aware of the 
efforts of the U.S. Government across the spectrum of nuclear defense. 
However, DNDO will not execute all of the programs in this area. For 
example, DNDO will lead the development of the overall technology 
roadmap for nuclear detection technologies but will not execute 
Department of Energy or Department of Defense research, development, 
and testing and evaluation programs. Likewise, it will not be 
responsible for implementing DOE (e.g. MegaPorts), DOS, or DOD portions 
of the global nuclear detection architecture but will be instrumental 
in setting the strategy for that implementation, for conducting test 
and evaluation as available of systems that may be deployed though 
those initiatives, and, to the extent possible, assess the 
effectiveness of the deployed architecture through red teaming and 
other means. DNDO will develop response protocols and facilitate the 
alarm to response timeline but will not actually respond to alarms. 
DNDO will not conduct field operations or award or administer Federal 
grants to State and local governments or emergency responders. The 
Office will not take over any of the functions that the Homeland 
Security Operations Center (HSOC) currently performs. However, DNDO 
will remain informed of those efforts as well as other efforts to 
counter the threat of nuclear terrorism in order to more effectively 
carry out its responsibilities.

Conclusion
    The effort to counter the threat of a nuclear attack against the 
Nation is one of the Department's most critical missions. The 
establishment of the DNDO will greatly increase our ability to address 
this mission through a consolidation of National efforts, establishment 
of the global architecture and deployment strategy, and by providing 
assurance of appropriate alarm resolution and response capabilities. I 
am proud to have shared with you today how the Department and its 
interagency partners will realign themselves to counter the threat 
posed by nuclear devices and materials.
    I look forward to working with you on this subcommittee in a 
continuing effort to confront the threat posed by this threat to the 
Nation.
    This concludes my prepared statement. With the committee's 
permission, I request my formal statement be submitted for the record. 
Mr. Chairman, Congressman Langevin, and Members of the Subcommittee, I 
thank you for your attention and will be happy to answer any questions 
you may have.

    Chairman Linder. Thank you very much.
    Yesterday in our hearing we were told pretty much across 
the board that the most important thing we can do is lock down 
known supply, particularly starting in Russia, and the further 
away from here the better.
    Who is working on that now and how will you change that?
    Mr. Oxford. Again, as part of the layered defense strategy, 
the responsibility for fissile material security and in some 
cases destruction, falls within the Cooperative Threat 
Reduction Program and others, handled mostly through the joint 
ventures of the Departments of Energy, Defense and State. As 
joint partners within this office, that is a very important 
layer of our defense that we will be fully cognizant of and be 
fully supportive of their endeavors. However, I am doubtful 
about our ability to have similar protocols in other countries 
beyond Russia and the former Soviet states where, again, 
control of fissile material in places such as Pakistan and 
North Korea may pose different challenges.
    Chairman Linder. The new level of technology, past the 10-
year-old technology, does that get us further, a longer reach 
in terms of detecting things? What kinds of changes do you 
expect?
    Mr. Oxford. First of all, as I mentioned, the aggressive 
program we have under way will begin deployment of next 
generation technology in fiscal year 2006. This capability 
being brought to bear gives us the abilities to discriminate 
nuclear-related materials and to distinguish from the false 
alarms and the naturally occurring radioactivity materials that 
we currently detect. Our current systems have high sensitivity 
rates, but they sense anything that has a radioactive response, 
so there are a lot of nuisance alarms.
    The new systems that can do spectroscopic identification 
will allow us to dismiss the nuisance alarms, while also 
identifying the alarming material we care about. It will give 
us significant improvement in capability primarily against the 
plutonium threat. It will give us marginal increase against the 
highly enriched uranium threat. It will give us only slight 
increases in performance over heavily shielded material, but 
again we have active programs under way that are several years 
down the road to address that.
    Chairman Linder. Does the new technology allow us to be 
further away from the source of the radioactivity and still 
detect it that we currently can with our current technology?
    Mr. Oxford. Actually the deployment strategies we have at 
least at our points of entry within the country, land borders 
and seaports, would allow retrofits into the existing 
deployment locations. It is a cost-saving measure. Where we 
have current deployment at either cargo container or land 
crossings, we would do a retrofit into those actual locations.
    We are essentially working within that same infrastructure. 
The true answer is we don't get a lot of increased range, but 
we get a lot of increased discrimination capability.
    Chairman Linder. Randy Larsen was here yesterday and 
suggested that a Gulfstream jet that could fly at 500 feet 
could come over virtually any one of our borders with a cargo 
full of radioactivity. Will we ever be able to see anything to 
detect something like that?
    Mr. Oxford. First of all, in this forum I don't want to 
talk a lot about vulnerabilities. But I will tell you that one 
of our charters within DNDO is to do the balanced trades across 
our vulnerability space to do risk-based planning to look at 
where we are most vulnerable.
    Right now we are focused on land border crossings, and 
major seaports, those are obvious smuggling routes. So it is 
vital to have coverage there. But there is also the air and the 
maritime corridor to worry about. We have to look at that from 
a risk-based perspective and come up with concepts for working 
that across the interagency partnership.
    Chairman Linder. You answered most of our questions we had 
at a private meeting. I thank you for that.
    I will yield now to my ranking member, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Oxford, one of our witnesses from yesterday, Colonel 
Randy Larsen, stated that the government does not have a 
nuclear terrorism strategy, and particularly it lacks a 
domestic nuclear strategy. I am concerned that the government 
is focusing on the solution before we know the problem that we 
are trying to solve. If we learned one thing from 9/11 and 
other Al-Qa`ida attacks it is that the terrorists attack very 
quickly. Therefore it is important for us to have a forward 
looking strategy to ensure that we can enhance our posture 
against the terrorists.
    My question to you is what is the DNDO's role in the 
development of a nuclear terrorist strategy, and does the DNDO 
plan to develop a domestic strategy? If so, when do you expect 
it to be completed?
    Mr. Oxford. I thank you for the question. One of our key 
challenges and one of the things I have put in our near-term 
milestones is the development of the global architecture and 
defensive strategy. It is not just domestic. It is global in 
nature by agreement with our interagency partners. The 
partnership that is brought to bear will look at this from a 
global basis, to include the overseas requirements that we 
think need to be bolstered in some cases.
    For example, air cargo screening overseas is in some cases 
something that we think may be very critical as part of our 
global detection architecture deployment. Domestically, then, 
we would be responsible for implementing that architecture. I 
have set a milestone of March 2006 to have a baseline 
architecture in place to which we can all be responsive. I 
don't expect that to be static. I expect it to be dynamic in 
nature, and that we continue to red team that to make sure we 
don't find gaps in the architecture as it evolves.
    Mr. Langevin. As you know, the legislation that we recently 
passed to implement many of the 9/11 Commission's 
recommendations included a provision establishing a National 
Counterproliferation Center, presumably under the direction of 
the DNI. How does the DNDO plan to interact with this new 
Counterproliferation Center, and what will be the respective 
roles and responsibilities of each? Can we ensure effective and 
consistent coordination while simultaneously avoiding 
redundancy and overlapping layers of bureaucracies?
    Mr. Oxford. I think the new organizations that are coming 
out of the intelligence reform will be major contributors and 
partners with us. We have an active program already, for 
example, responding to the press reports this morning. We have 
a Nuclear Assessment Program that now falls under DNDO that is 
an active component of doing day-to-day intelligence analysis 
and assessments of the day-to-day raw intelligence reporting 
and doing assessments similar to what you are talking about.
    They have an active engagement with the existing 
Intelligence Community and will now expand that to the NCTC and 
the Counterproliferation Center as it gets up and running. We 
would expect this to be a very collaborative relationship.
    We bring in specialists to look at behavioral aspects of 
the nuclear threat, the technical aspects of the nuclear threat 
and the operational likelihood of some of those things. So we 
are looking hard now at the Nuclear Assessment Program as it 
currently exists to find out how it may be expanded to include 
collaboration with the entities you are referring to.
    Mr. Langevin. I still have additional time. So I will ask, 
Dr. Fred Ikle from CSIS in yesterday's hearing believes that 
the most important component of the DNDO is the long-term 
research and development of the next generation of detection 
sensors. In your testimony, you state that this office will 
conduct transformation research, but your budget calls for a 
total of $162 million research and development.
    Now I am a member of the Armed Services Committee, and I 
can tell you that the DOD budget requests for the upcoming 
fiscal year for just operational research is $1.1 billion. I 
know the DHS plans to leverage DOD resources and research 
expertise in the DNDO. But how do you expect the DNDO to be the 
lead Federal office for development of a domestic nuclear 
detection system with a $162 million research and development 
budget? How far will $162 million allow DHS to get in the 
development of the next generation of equipment?
    Mr. Oxford. Let me respond to that in two ways. First of 
all, the $162 million is divided between spiral development, 
which would give us near-term solutions, the 0 to 5-year 
solution, and the transformation R&D.
    As I have already indicated, we will start deploying new 
systems as early as next year that give us the increases that 
the chairman mentioned or asked about earlier. As part of the 
$162 million, there is about $82 million that is the first year 
start-up of this transformational research and development 
program. Contrary to comments that were made in the hearing 
yesterday, it is not managed through an interagency 
coordination council. It is a separate research and development 
program that we have fenced within DNDO to give us this long-
term edge.
    We are going to review, based upon the needs of that 
program, what our 2007 requests should be. Again, this is a 
start-up organization. We recognize that we need to get the 
program started next year and then reflect on what the needs of 
the outyears should be.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Linder. Would the gentleman from Connecticut wish 
to be recognized?
    Mr. Simmons. Thank you, Mr. Chairman, and welcome, Mr. 
Oxford. From reading your resume, I understand that in the 
early 1990s you were at DNA, the Defense Nuclear Agency, and 
then the Defense Special Weapons Agency and Director for 
Counterproliferation, again, in the mid-1990s.
    Many years ago I was involved in nuclear 
counterproliferation activities. It seems to me that the model 
that we had in those days was a model where certain sovereign 
states had nuclear technologies, certain states, what we called 
the rogue states, were able to surreptitiously obtain some of 
those technologies and materials and were able to develop or 
try to develop weapons capabilities, in some cases with 
superpower assistance, usually clandestine or not disclosed.
    So the model implied pressuring certain sovereign states to 
cease and desist the activity or encouraging superpowers who 
had those businesses or organizations within their borders to 
cease and desist on the assistance. It occurs to me today that 
we have got a new model or at least an important new variation 
in what went before, which includes all of the above, but it 
also includes the theft or purchase of nuclear weapons and 
technologies by organizations that are not sovereign states, 
and therefore not subject to the same tools of pressure or 
manipulation, are not afraid to commit suicide, have no 
homeland that is threatened by their activities. My basic 
question is, are you confident that the U.S. Government has 
organized for this new model? That is point one.
    Point two, has the U.S. Intelligence Community adjusted 
itself to the new model?
    Then my third question is, in the field of information 
sharing how are we doing?
    Mr. Oxford. Let me start with point one in terms of whether 
we have adjusted to the new paradigm. I, too, worry about the 
way we do intelligence analysis and that we have had a 
community for many, many years that equated the nuclear threat 
to a missile program.
    I can't tell you right now that I think the Intelligence 
Community has made that shift. I think we have to insist that 
the convergence of the counterterrorism approach with the 
traditional weapons analysis approach has to be done. I think 
DNDO brings us to the table, and gives us the opportunity to be 
a catalyst to require that, because we have got to look at this 
from both a perspective weapons program in a nation state as 
well as the potential that they may choose alternate delivery 
means besides a ballistic missile.
    It is not only the organizational issue, but it is also the 
addition of an organization like DNDO to serve as a catalyst 
within the community to make sure we are getting the right 
assessments and that we get the right components of the 
Intelligence Community working together across those lines.
    The Counterproliferation Center is a step in that 
direction. If we can get the NCTC and the Counterproliferation 
Center working together, especially responding to our needs in 
the nuclear field, because we are a consumer of intelligence, 
therefore we would also be a catalyst for the right 
assessments. I think it allows your first two points to start 
to come together.
    On the information sharing, we have a major challenge to be 
able to take highly classified information all the way down to 
the unclassified level, because one of our major challenges 
that I have yet to address today is the fact that, as part of 
our architecture we may see a need to have detection 
capabilities domestically at the State and local levels. We 
want to do that in an informed way. We want to be able to share 
information with them. Whether you call it threat information 
or not will remain a matter for discussion.
    We have got to be able to give them insights in terms of 
how they would be reacting to this threat and, likewise, the 
flow has got to come back in the other direction; the response 
protocols that we work with State and local entities. So we 
will have to work across all of these elements to make sure 
that this information is flowing adequately.
    As I mentioned, the Nuclear Assessment Program that already 
exists is a very strong component of the current nuclear 
assessment process within the interagency architecture. The 
same office that I am referring to has as routine customers the 
FBI, the State Department, the Energy Department, et cetera. 
They call upon this entity to do the assessment of those kinds 
of nuclear threats. We have got to make that a central key, as 
I have already mentioned, with the Counterproliferation Center 
and others.
    Mr. Simmons. Thank you, Mr. Chairman. I have a follow-up 
question, but I will wait for the next round.
    Chairman Linder. Does the gentleman from Mississippi wish 
to inquire?
    Mr. Thompson. Thank you, Mr. Chairman. Mr. Oxford, on 
yesterday we heard testimony from the private sector indicating 
their willingness to help with developing new technologies, 
especially around the area of detection. I would like to get 
from you whether or not you feel the Department is providing 
enough encouragement to the private sector for the development 
of those technologies, and to what extent our own labs are 
either hindering that ability or encouraging that ability to 
take place.
    Mr. Oxford. First of all, I am very encouraged by the 
interaction right now between our Federal laboratory system and 
private industry. As the chairman mentioned, I am also the 
Acting Director for HSARPA within DHS, Science and Technology. 
We have been very aggressive in this manner. We have numerous 
private industries involved in radiation detection development 
right now.
    For example, the next generation technology I mentioned 
earlier, we currently have 10 separate private vendors that are 
the result of an intense competition where we had over 50 
different contractors submit proposals for developing these 
next generation systems. We will take them to the test 
evaluation center that I mention in my statement in July where 
they will undergo extreme testing.
    Part of this collaboration has been the national 
laboratories which have developed some of the components, as 
well as some of the software algorithms. There has been a 
mutual relationship that has evolved through the work that we 
have done within DHS to bring more innovation together within 
our contracting practices. We bring private industry and the 
national laboratory structure closer together than you 
sometimes see in the other departments. I am encouraged by that 
relationship, and I don't see the two competing with each 
other.
    Mr. Thompson. On another front, it does not appear that 
officials of the CIA will be detailed to this new office. Have 
you made some assessment as to whether or not their presence is 
needed or whether or not it poses a problem?
    Mr. Oxford. Right now we are still doing that assessment. 
The initial assessment is that with programs like the Nuclear 
Assessment Program, the intelligence community is already part 
of DNDO and their direct connectivity into this community. We 
probably don't need to have a fully embedded CIA staff member 
as long as the connectivities are as strong as they are right 
now. We continue to have discussions, for example, with the 
NCTC to explore whether mutual exchanges of liaisons make 
sense. We will continue to explore that. The head of our office 
of operational support has been directed by me to go and visit 
with each of these intelligence organizations and come back 
with options for how this relationship ought to grow.
    Mr. Thompson. I guess that is, my real concern is if doing 
an informal structure will work or does it have to work to be 
something more formalized from our standpoint?
    Mr. Oxford. I think from our perspective we can work the 
relationship either through MOAs or MOUs to make this happen. I 
think a more close coupling in terms of having direct 
involvement in the Intelligence Community could be an 
impediment to DNDO in the long run, because if we become part 
of the IC it puts certain restrictions on our ability to 
operate overseas and with some private sector entity. So I 
would caution against a direct coupling with the Intelligence 
Community, but we have to have the right collaboration.
    Chairman Linder. I thank the gentleman. The gentleman from 
Connecticut wish to inquire?
    Mr. Shays. Thank you, Mr. Oxford. Thank you for being here. 
Thank you for your work. Thank you for your service to our 
country.
    I am intrigued by the radiation detection equipment worn by 
border guards. When we were in Los Alamos about a year and a 
half ago. They showed us some of the equipment that was being 
used and they put it next to radioactive material and it didn't 
work. They said, you know, we never were consulted, you know, 
and so that got my attention. Could someone bring enough 
radiological materials across a land border to make a dirty 
bomb?
    Mr. Oxford. Let me again do the comparison I did a few 
minutes ago. If it were a border crossing where we had the 
existing equipment you are talking about and if it were 
unshielded radioactive material sufficient for a dirty bomb, we 
would detect it. That is one of the things we can detect 
material that is highly emitting.
    Mr. Shays. The issue though is unshielded?
    Mr. Oxford. Correct.
    Mr. Shays. I was on the floor just to deliver a statement 
and hear your statement but not hear the response to that 
question. Let me just ask, a suitcase in a trunk of a car with 
a lead box containing cesium or cobalt for medical equipment, 
would that be detected?
    Mr. Oxford. Probably not with existing systems. As I 
mentioned earlier, the systems that we are going to deploy will 
give us better discrimination capability. We hope to start 
deploying those next year.
    Mr. Shays. Who develops detection capabilities now? Is it 
DOD, DOE or DHS? Which one is it?
    Mr. Oxford. Right now for the border crossings it is all 
DHS. It has been a legacy mission, legacy within the last 
several years of Customs. That responsibility now conveys to 
DNDO.
    There have been special programs within DOE and DOD for 
some of their research responsibilities where they have 
developed equipment. DOE has also, through their Mega Ports 
Program, negotiated some acquisition of equipment for overseas 
deployment. However, for domestic deployment it is primarily 
DHS through Customs that has developed and manufactured the 
equipment.
    Mr. Shays. I won't tell you the government building I went 
into, but I went into a government building with someone who a 
week and a half before had had a stress test and alarms went 
off. Someone was asked, did anyone have a stress test?
    Does that represent fairly sensitive equipment that could 
determine that? I mean, this was someone walking into a 
building.
    Mr. Oxford. Again, the challenge in most cases is not the 
sensitivity. It is the discrimination the ability to 
discriminate between false alarms and nuisance alarms versus 
being able to identify the threat materials that we are most 
interested in. In that case it was a sensitivity issue that it 
was able to detect that, but you would have detected anything 
whether it is a legitimate threat or not.
    Mr. Shays. So you were saying I shouldn't be impressed. I 
was kind of impressed that a radioactive material that was put 
in the body of someone a week and a half before that should 
kind of, you know, filter out over time, that in this 
government building it was detected. You are saying don't be 
impressed with that?
    Mr. Oxford. Not really. That is something that, in fact, is 
a routine issue that we worry about that causes a lot of the 
false alarms I mentioned because it is a legitimate radiation 
source that we have to deal with. Some of the deployments of 
radiation pagers cause a problem in that regard, because some 
of those can pick those up as well. Then we have to figure out 
how to assess the individual who just triggered the alarm. It 
is not a sensitivity issue in that case, it is discrimination.
    Mr. Shays. With discrimination, are we able to determine 
different types of radioactive material?
    Mr. Oxford. Through the spectroscopic identification we are 
able to identify the isotopes that we want to worry about and 
those that we can to dismiss.
    Mr. Shays. Thank you. Thank you for your responses.
    Thank you, Mr. Chairman.
    Chairman Linder. Does the gentleman from Washington wish to 
inquire?
    Mr. Dicks. Thank you, Mr. Chairman. I want to welcome our 
witness. Let me ask you this. We had a big discussion yesterday 
about whether this should be the National Nuclear Detection 
Office or the Domestic Nuclear Detection Office. Which one 
would you prefer?
    Mr. Oxford. If I were king for a day, anybody would want to 
have full authority over everything. However, there are some 
practical limits.
    Mr. Dicks. Why did they put ``Domestic'' in this name?
    Mr. Oxford. I think it was primarily because of where the 
emphasis will be on the deployment, as opposed to the planning. 
So it is a misnomer, it is confusing. I know Chairman Cox has 
had some discussions with our Deputy Secretary about this very 
subject.
    The focus of the office includes centralized planning, but 
decentralized execution, and the ``Domestic'' name may be 
problematic over the long run unless we just get the message 
out. We will deploy domestically but we will plan globally.
    Mr. Dicks. All right. Now in talking about setting up a 
global architecture--and that is part of your assignment, is 
that not correct?
    Mr. Oxford. Correct.
    Mr. Dicks. How are you going about that?
    Mr. Oxford. Again, we have an interagency team as part of 
the system engineering and system architecture piece of our 
organization. We will do this through a national laboratory 
team that will be exploring components of the architecture. We 
have two industry-based teams that are exploring the 
architecture. We will take the output from those processes, 
bring it into the interagency team within DNDO, and actually 
create the global architecture we would like to see deployed.
    Mr. Dicks. In order to have a global architecture, if you 
are going to go beyond the United States, unless it is in 
space, you are going to have to get other countries to 
cooperate, is that not true?
    Mr. Oxford. That is true. That is why, again, bringing 
together the people that are already working overseas, DOE and 
the State Department, as part of this collaboration to find out 
where it is practical to strike some of these deals are so 
important, first of all, we have to decide where we want the 
capability overseas and then we need to figure out what 
agreements need to be in place. That is why some people are 
confused why State Department should be part of this, but we 
think part of their overseas presence and experience has got to 
be in the office.
    Mr. Dicks. I can see in container security, the CSI, the 
Container Security Initiative, you have to be overseas. And if 
you really are going to do this job you want to inspect these 
containers before they get to the United States. Isn't that 
true?
    Mr. Oxford. Absolutely. Not only that, but you want to know 
how well the detection works overseas. Part of our concept is 
to go overseas and assess the health of that architecture, how 
well are those countries operating the systems and how well 
they work, so that we have a full appreciation for how well the 
material has been screened before it heads toward our borders. 
Just deploying overseas isn't sufficient without knowing how 
well it works.
    Mr. Dicks. Okay. I want to go back to something you said 
earlier just to make sure I understand it. The National 
Counterproliferation Center is in the Director of National 
Intelligence. There was concern yesterday from our outside 
witnesses that, you know, this is maybe duplicative. Are you 
going to sort out what they are going to do and what you are 
going to do?
    Mr. Oxford. Absolutely.
    Mr. Dicks. Again, I assume you will be doing most of the 
intelligence gathering because you are in the intelligence 
office.
    Mr. Oxford. We consider ourselves a consumer of that 
intelligence. We get the raw intelligence and we do some of the 
special nuclear assessments within the Nuclear Assessment 
Program. They will be a coupled activity that will feed off of 
each other.
    Mr. Dicks. Let me ask you this. There was a National 
Counterproliferation Center in CIA. Is this then spun off to 
the Director of National Intelligence, or does the CIA still 
have a National Counterproliferation Center?
    Mr. Oxford. The counterproliferation activity that I was 
aware of within CIA was the Counterterrorism Center.
    Mr. Dicks. Counterterrorism Center. I misspoke.
    Mr. Oxford. I think they have now become coupled. Again, I 
don't have all of those details.
    Mr. Dicks. But, again, just say it again, what are they 
going to do? You are going to get raw intelligence, they are 
going to get raw intelligence? What is the difference? What are 
they going to do that you are not doing, and what are you going 
to do that they are not doing?
    Mr. Oxford. We are going to sit down with them now that 
they are merging and figure out how these two programs get 
coupled.
    Mr. Dicks. So you think this is something that needs to be 
sorted out?
    Mr. Oxford. Absolutely.
    Mr. Dicks. And that if somebody in the administration has 
to work out and Congress may want to take a look at it once you 
decide what you have done here?
    Mr. Oxford. The recommendation we made to the Secretary and 
to others is we will not break anything that is in existence 
works. We need to figure out what these things are.
    Mr. Dicks. This hasn't been created?
    Mr. Oxford. Right. We need to start it, correct.
    Mr. Dicks. I have been around here a long time, worked on 
defense appropriations for 27 years. We have wasted a ton of 
money on R&D and programs. I hope you are getting some advice 
from Defense and DOE about how you do these--and DARPA, about 
how you do these research programs. Or are we just starting 
this up, a new babe?
    Mr. Oxford. No, in fact, Congressman, that is the value of 
having DOD and DOE specialists inside the office, because they 
are staffing the office with people that understand system 
engineering, tests and evaluation. These are some of the 
strength, of those departments that we are bringing into the 
office to make sure we do these things accordingly.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Linder. Thank you. Would the gentleman from 
California seek to inquire?
    Mr. Cox. Thank you, Mr. Chairman.
    Welcome, Mr. Oxford. I want to add to what I know my 
colleagues have already said. Congratulations to the Department 
of Homeland Security for leading this effort to give us a focus 
on the prevention of nuclear terrorism.
    Our interest is in making sure that the Department of 
Homeland Security really undertakes this mission and that it 
does so in an integrated rather than piecemeal fashion.
    Let me begin with what may be the capillary rather than the 
jugular, but it has gotten a whole lot of discussion since our 
recent hearing with outside witnesses, and that is the question 
of whether we are domestic, national or global or what are we.
    I do think that the name of a program or an organization is 
important to the extent that it conveys the sense of mission. 
In the 19th century we had a Department of War, and there was 
no question what its mission was. Ultimately, we refined that 
mission so that in addition to making war we were going to make 
war by air, land and sea. But the Department of Defense, 
whatever else you want to say about it, has a clear 
understanding of its essential mission.
    I am very, very concerned in the early days of the 
Department of Homeland Security that we also establish a clear 
sense of mission. The purpose that Congress had in mind in 
creating this new department, which is already the third 
largest in our Executive Branch, was to end the Balkanization 
and the dispersal of responsibility.
    Now that we know that the mission of the Department of 
Homeland Security is first and foremost preventing terrorism, 
and we also know that nuclear terrorism is either the or one of 
the two major consequent terrorist events that could occur, 
given the 21st century state of technology as we know it, it is 
vitally important that we have a focal point for this mission. 
What is proposed as the Domestic Nuclear Detection Office is, 
in fact, according to your presentation today, going to have a 
global architecture.
    So I would think it misleading if we were to call it the 
Domestic Nuclear Detection Organization, and equally I would 
think it misleading if we were to call it the National NDO. I 
mean, maybe I am missing something, but I was an English major 
in college and spent a little time on linguistics and semantics 
and so on.
    What is the difference between national and domestic? I 
mean, I think I understand the Nation to be the United States 
of America and I think I refer to domestic to be United States 
of America. So that sounds nearly synonymous to me.
    We don't want to confuse people, and if we want a sense of 
mission that we are going to go overseas and find these 
terrorists, and we are going to track the nuclear materials 
first and foremost at their source, then we shouldn't have an 
implicit mission that is focused merely on the deployment of 
technology within our own borders.
    So that is some of what we wanted to discuss with you 
today.
    In addition to having a global focus, it is my hope that 
this mission within the Department of Homeland Security will 
have a significant intelligence component, because after all, 
the purpose of nuclear detection is the prevention of nuclear 
terrorism, and prevention equates directly with intelligence, 
and yet it seems that the current DNDO proposal completely 
excludes intelligence from any part of its organizational 
structure.
    I would hope that that is still under discussion and we are 
still thinking about that and it won't be a mere integration of 
agencies, because if it is then what we will find is that we 
have created in the Department of Homeland Security just one 
more seat at the table, one more element to be coordinated and 
the job will be even more difficult than it was before we had 
this department.
    So I invite your comment on these things. I hope that you 
can give us some comfort that we will in fact have a global 
focus, that the deployment of technology and sensors in the 
United States will not be the essence of what we are doing 
here, but merely a part that we will be the focal point, rather 
than merely a participant in a governmentwide effort, and that 
the responsibility for this mission will, in fact, reside in 
DHS.
    I invite your comments.
    Mr. Oxford. First of all, Mr. Chairman, I don't know how I 
could come up with a better name myself as well. We spent a lot 
of time discussing it. There was actually another name early on 
in the cycle--it was a the National Domestic Nuclear Detection 
Office. We have made some progress to get it down.
    Mr. Cox. Just a humble submission, we are all putting our 
entries in the hat here. I just dropped that first adjective, 
you know; I don't like ``Global'' or ``World'' either. That 
bothers me for different reasons. I mean, this ought to be a 
U.S. effort, but I just would get rid of the adjective.
    We are focused on preventing nuclear terrorism. Nuclear 
Terrorism Prevention Office or something would be fine with me. 
But clearly what we need is an understanding of whether we are 
looking inward in a defensive crouch or whether we are reaching 
out and also making our job easier by getting the source of 
that--.
    Mr. Oxford. We really are looking out as part of the 
layered defense strategy, to make sure we take into account all 
of those overseas activities, while also accounting for the 
fact that not every one of those layers can be 100 percent 
successful. We seek to improve the kinds of equipment that we 
deploy overseas, with regards to the actual effectiveness of 
those systems as we deploy them and we also continue to assess 
those systems as we test and deploy them overseas.
    So, again, working with DOE and others overseas as part of 
the global architecture should give us a lot of hope that we 
are going to improve the performance of systems overseas and, 
through information sharing and intelligence process make sure 
that we understand how well overseas material is screened 
before it heads towards the U.S. Clearly, there is a goal to 
make the domestic system work well as well.
    Mr. Cox. With the chairman's indulgence, I would just ask 
one additional question. The NCP, which we have got what 
remains of 18 months to establish, as Mr. Dicks was pointing 
out, has very relevant objectives. Where in the government NCP 
is going to end up is still the President's decision.
    Is it under consideration that NCP be established within 
DHS with DNDO or whatever we are going to call it as an 
operational element?
    Mr. Oxford. I have not had any specific discussions on that 
point. I know it has been raised over the last day or so. I 
haven't talked to the Secretary directly on that subject. 
Again, as I mentioned before, I think a very close working 
environment with them is important. But to become part of the 
Intelligence Community for DNDO would hamper some of its 
developmental and international abilities.
    I would like a close relationship without being considered 
part of the IC because of some of those inherent limitations.
    Chairman Linder. Does the gentlewoman from Virgin Islands 
wish to inquire? You were here. I am sorry, the gentlewoman 
from California.
    Ms. Harman. Thank you, Mr. Chairman. My appreciation to you 
and the ranking member for holding a very interesting set of 
hearings, and to the full committee for realizing that the 
nuclear threat is a huge priority, not just for this committee, 
but for our country.
    I want to state a couple of things that I haven't been able 
to for the record and this committee, because I have not been 
here at the precise time to get called on, but I am today.
    First of all, I have great confidence in the new Secretary. 
I think Michael Chertoff is going to be able to get his hands 
around an agency that has had a very slow start. Part of that 
is our fault because the construct for it is so ambitious.
    But nonetheless, I think the way he is going to focus on 
intelligence policy and operations is the right focus. I am 
very pleased with the start, and that includes many of the 
folks who are in this agency and trying to do the right thing. 
So congratulations to you, too, Mr. Oxford.
    The second thing I wanted to say is that as one who has 
focused a lot on reorganizing in order to confront and defeat 
the threats that face us in the 21st century, I think 
organization obviously matters. I think the names of things 
matter and where the boxes are matter. But I think more 
important than the organization is mobilizing the political 
will to act. That is really what I want to ask Mr. Oxford.
    In today's ``Washington Times,'' there is a report, an 
article which leads with this, ``Recurrent intelligence reports 
say Al-Qa`ida terrorist Abu Musab al-Zarqawi has obtained a 
nuclear device or is preparing a radiological explosive or 
dirty bomb for an attack.'' It then goes on to say the sourcing 
may be unreliable, but surely this is of concern and the 
possibility that al-Zarqawi could have such a device is of 
urgent concern.
    So my question of Mr. Oxford is this. Yesterday's witnesses 
made absolutely clear, and I agree with them, what kind of 
threats we are facing. I also believe, and I think you do too, 
that we have a lot of capability in our government and 
elsewhere to confront those threats.
    But if they are as serious, as I think they are and you 
think they are and the members of this committee thinks they 
are, why don't we have the political will to make this the 
highest priority in our country and to focus many more 
resources and brain cells on dealing effectively with the 
nuclear threat?
    Mr. Oxford. First of all, let me address the fact that we 
have been following the report that you are citing for 
approximately a year and a half. There have been a variety of 
reports of that nature. We have been working on this closely 
with the rest of the community and with the Defense Department. 
I sent an inquiry over to Defense today to ask them what they 
were doing to follow up. I haven't gotten an answer back from 
them yet.
    Ms. Harman. Thank you.
    Mr. Oxford. It is something we get involved with. Through 
the Nuclear Assessment Program we follow a monitor, and it goes 
into an analytical data base so that we can do trend analysis 
over time.
    I think the resource issue is an interesting one. When we 
conceived of DNDO over the last 6 months or so, and as we 
worked across the boundary conditions, we recognized in the 
first year we really need to do the architecture work. We 
really need to put the strategy in place, as opposed to just 
coming to the Congress with a very large budget and not being 
able to defend its intention.
    Again, as we ramp up to the fiscal year 2007 budget 
submission, we will be putting this into perspective. I don't 
know what the numbers will be, but I would not expect them to 
be flat, in terms of our needs and our request, because the 
more we look at this, the more we will have an appreciation for 
what needs to be done.
    Ms. Harman. Well, I surely support strategy. I think that 
is what we have lacked in the Homeland Security Department. But 
I don't think it is just a question of resources meaning money. 
I don't think you do either. You have said strategy matters. I 
think it is also a question of focus, not yours personally, but 
this country tunes out information about the nature of this 
threat. We can't tune it out. We tune it out at our peril.
    So I just put on your plate and certainly on Secretary 
Chertoff's plate and on the plate of this committee the need to 
find the handle on how to get the public to focus on this in 
ways that they haven't and to get the urgency of the threat and 
our need to respond in a strategic, informed way out there, so 
that should something terrible happen or, better yet, should 
something terrible be threatened and we can find the clues to 
block it, we act.
    Mr. Oxford. If I could address that in a couple of ways, 
first of all I'd like to assure you how seriously this is being 
taken within the Department right now. This was the first topic 
that the new Secretary took on when he came into the office. 
The very first morning after being sworn in we had a meeting on 
DNDO with the Secretary.
    Separately, we do have a major goal to broaden the 
awareness of this activity, throughout State and local 
governments. We are working now through our Office of Domestic 
Preparedness to figure out how to migrate awareness of the 
capabilities and the ability to respond to this in a much 
broader way through those channels.
    We have also looked at proposing a nuclear detection 
interdiction exercise as the next prevention component of a 
TOPOFF exercise, we need to put that on the table. We need to 
start planning right now so that it coalesces our efforts in 
this area.
    Ms. Harman. Thank you, Mr. Chairman. I just want to say how 
much I appreciate the thoughtful answers of this witness.
    Chairman Linder. Does the gentlewoman from Virgin Islands 
wish to inquire?
    Mrs. Christensen. Thank you, Mr. Chairman.
    Welcome, Mr. Oxford. A little bit different kind of a 
question, I guess, many security experts believe that 
terrorists are more likely to use a dirty bomb to carry out an 
attack. Given the abundance of radiological material available 
in this country, what steps are being planned? What steps do 
you think the government should be taking to secure domestic 
radiation sources?
    Mr. Oxford. First of all, the responsibility for much of 
that falls with the Nuclear Regulatory Commission. We are in 
direct contact with them to discuss their participation within 
the office to include not only having staff members within 
DNDO, but also active sharing of the data bases that they are 
proposing to establish that would monitor the licensees and the 
actual movement of materials. If they are going to have a 
legitimate movement of a nuclear source, we need to be apprised 
ahead of time so that we can notify people that this will take 
place.
    Again, most of that would fall under the NRC, but, we are 
in direct contact with them on that accord.
    Mrs. Christensen. Are all of the sources identified as far 
as--.
    Mr. Oxford. I think we have a pretty good handle on those 
that we are most concerned about. They fall under multiple 
categories. We have pretty good controls those that project the 
highest threat. Again, this is done through a series of both 
Federal licensing program through the NRC, and in some cases 
the States, have taken on the licensing responsibilities for 
safeguarding and reporting on the status of those sources.
    Mrs. Christensen. I really meant to bring the testimony 
from the previous hearing that we had, and I forgot. But as I 
recall, not only does Customs and Border Patrol have some 
responsibility with regard to nuclear material and detecting 
it, but I think State does as well.
    Now, they are not, what, two of the agencies that are a 
part of the national or the domestic DNDO, right?
    Mr. Oxford. DNDO.
    Mrs. Christensen. If they are not included within the DNDO, 
why?
    Mr. Oxford. Actually, they are. We will have 11 assigned 
people from the Bureau for Customs and Border Protection in the 
DNDO as part of the joint office. We are working across the 
other components of DHS as well. So we are going to have 10 
people that are coming from Customs directly into the office. 
We also have a senior liaison from the State Department that is 
coming into the office to be our bridge back to the State 
Department and all the interests overseas. So, they both are 
directly working in the office.
    Mrs. Christensen. Thank you. Thank you, Mr. Chairman.
    Chairman Linder. The gentlewoman from the District of 
Columbia wish to inquire?
    Ms. Norton. Thank you very much. I apologize that I was 
stuck in another hearing and unable to hear all of this 
testimony. I read the testimony. I am particularly interested 
in this area, so much concern has been expressed, so many worst 
case scenarios are out there.
    At the same time, we have just created the new Office of 
National Director, we are talking about the National 
Counterproliferation Center. This is really a hearing to get us 
to understand the structure and how it fits in. You could help 
me--if you could help me to understand, just judging from your 
testimony, what I see happening here. Everyone is afraid that 
things will begin bumping into one another as we try in good 
faith to separate what needs to be done and to somehow get it 
all together.
    As I read your testimony, it seems to me that you are 
coordinating a startup technology operation, and this is why I 
say so. I need you to tell me if this is right or wrong. You 
say on page 3 that you will be--that DHS will be working 
holistically to combine research and development acquisition 
and operational support out of a single office.
    Now, if you move on to page 5, you speak about how this--
how your office actually seeks to create transformational R&D 
and, therefore, will not be driven directly by operational 
requirements. You say that these--that the transformational 
aspect of what you are doing is essentially so great it could 
provide new operational concepts altogether.
    Then you helpfully state on page 8, what you will not do. 
You indicate again the focus on technology, speaking about a 
road map for nuclear detection technology, but will not 
execute. Then you go on to name these agencies, Department of 
Energy, Department of Defense, agencies that are already 
involved in this. It sounds to me as though you were part of 
a--and I can understand this and you are careful in trying to 
make clear what it is you can do, what indeed you won't do or 
won't attempt to do. But I don't see--I really don't see any 
part of you that is operational.
    I can understand why it should be in DNDO and the need for 
DHS to coordinate all of the various agencies that must be 
involved that we are talking about detecting nuclear threat 
before we arrive on shore, but I don't understand why the word 
``operational'' should be here at all.
    I can understand at the table would be people who would 
have to operationalize some of what seems to me you are leading 
us in doing, and that is developing a true basis to detect 
these threats abroad. So I understand why.
    I suppose my question is, why don't you say that? Why does 
operational get into this at all? Are you not essentially, as I 
said when I began, coordinating the startup of a new 
technology, a new approach to detecting the nuclear threat 
before it arrives in our country, and keeping in touch with the 
operational actors so that becomes integrated as becomes 
appropriate?
    Mr. Oxford. And I apologize if any of the words in there 
are misleading, but we try to be very clear to say that what we 
are doing is operational support. We do not actually conduct 
the operations, but we provide, for example, support to alarm 
resolution. If Customs or if an overseas location gets an alarm 
on their detection systems, we provide support to those 
operations to help them with resolving those alarms, to find 
out is it a threat alarm or is it a nuisance alarm.
    So there is an operational support element in that regard. 
Operational support also extends to the sharing of information 
across this architecture so that we can enable people to 
conduct better operations. So we don't physically conduct the 
operations. For example, if we get a real nuclear alarm, we 
immediately invoke the FBI's law enforcement authorities. They 
conduct the search in conjunction with DOE assets, but we will 
be there to trigger in a much more time compressed fashion the 
transition from alarm to response, that response being the 
actual operations. But we will not do the search ourselves. So 
we try to be careful by making that operational support, and I 
apologize if there is languageSec. 
    Ms. Norton. So by operational support, you mean you provide 
the expertise, the technological expertise that may be 
necessary?
    Mr. Oxford. Or information that better informs operations 
in the field.
    Ms. Norton. Thank you very much for that clarification.
    Chairman Linder. Chairman Cox?
    Mr. Simmons, would you like to inquire?
    Mr. Simmons. Thank you, Mr. Chairman.
    I remind myself that the answer to the previous question as 
to whether we have adjusted to the new model or the new 
paradigm of counterproliferation was, as I recall, we are not 
there yet. Is that what you said?
    Mr. Oxford. I think that is fair.
    Mr. Simmons. We are not there yet. And I agree with that. 
And I think that underlies the seriousness of the situation 
that we face.
    The ranking member of the full committee, Mr. Thompson, 
asked a question about the Central Intelligence Agency and 
other entities and whether they would be represented in the 
Nuclear Detection Office, and I like the chairman's title for 
it. Let us get rid of ``domestic.'' That sounds like something 
that might be based from our homes. From the Latin ``domus.'' I 
was an English major, too. So Nuclear Detection Office.
    I don't understand how we can be fully effective in 
detecting or in being involved in developing technologies for 
detection or for warning these sorts of things without having 
the Intelligence Community and their representatives embedded 
within the system.
    I think you said that close coupling would be an 
impediment. Is that correct? Close coupling with these agencies 
might represent an impediment because perhaps if the 
traditional rules and regulations that cover the FBI, the CIA, 
et cetera, et cetera. And I guess my response to that, Mr. 
Chairman, is that if coupling--if this agency, this new 
organization's coupling with the Intelligence Community in an 
area this important and this significant is an impediment, then 
we need to know why. It could well be that the impediment is 
the rules and regulations that this Congress and others have 
placed on the Intelligence Community over the years that have 
rendered them useless. Well, I shouldn't say that, but 
certainly rendered them ineffective to prevent 9/11 and 
rendered them ineffective to do the weapons of mass destruction 
analysis on Iraq. And so if in fact these rules and regulations 
and these restrictions are an impediment to the Intelligence 
Community to the point that they are an impediment to you, then 
that seems to me to be a serious issue worth pursuing.
    My friend and colleague from California said maybe it is an 
issue of political will. I don't think the political will is 
lacking. I think there may be bureaucratic politics and 
inertia, a lack of risk taking, opposition from groups that 
traditionally have opposed the Intelligence Community. But all 
of this underlies my fundamental concerns and my second set of 
questions, which is, are we in the zone? Are we in the cycle? 
Is your organization somehow within the intelligence cycle at 
least when it comes to requirements? Do you feel that the 
requirements that you have to do your job to prevent this 
country from being hit by a radiological attack from somebody 
like Mr. Zarqawi, are you sufficiently embedded in the cycle 
that you feel comfortable you can do your job?
    I am not sure that you are. So I would love to hear that 
you are.
    Mr. Oxford. Let me suggest that maybe I was too subtle in 
my previous answer. When I was suggesting coupling, I was 
referring to some of the discussions which suggested that maybe 
the two organizations be combined. Becoming part of the 
Intelligence Community--that is, if DNDO were part of the 
Intelligence Community--I think may be an impediment to the 
broader mission. I would argue to be separate from the 
Intelligence Community. That is why I used the term coupled. In 
that term, I was talking about being fully integrated. I think 
the relationship has to be there. That is not the impediment I 
was worried about.
    Mr. Cox. Would the gentleman yield?
    Mr. Simmons. Of course.
    Mr. Cox. I appreciate the gentleman asking the question. I 
also agree with Mr. Oxford that at least for this member it was 
too subtle, and even with your expanded explanation I don't 
understand why it is that if this were all done, for example, 
under the rubric of IA, and if counterproliferation were a 
specific function, and if DNDO, if that is what we are going to 
call it, were an element of that, it wouldn't work.
    Mr. Oxford. It may work in that case as opposed to a 
separate independent organization outside of DHS. The 
integration of this office within DHS, and the IA component 
will mature through the Secretary's review. We could certainly 
explore options in that regard, but I was just looking at this 
as a stand-alone organization that merged the mission of DNDO 
with an intelligence component. I think there would be some 
problematic issues in that regard. With regard to how we can do 
this inside the Department, I think there is a variety of 
alternatives. In that regard, I think it is okay.
    Mr. Simmons. I thank the Chairman.
    Chairman Linder. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chair. I think that was an 
important discussion we just had, and I think we need to 
explore that further. So I thank both Mr. Simmons and Mr. Cox 
for their comments and your answers, Mr. Oxford.
    The question I had, I wanted to turn back to the issue of 
the detectors and the--in terms of budget requests. And the 
witnesses from yesterday's hearing had also raised concern that 
DNDO is domestically focused. And I know that your testimony 
states that DNDO will develop global detection architecture. 
But, again, the administration's request is $5 million, this 
effort. So how much progress is DNDO going to be able to make 
in developing this global framework for the $5 million budget 
request?
    The second part, with respect to detectors, I would like to 
ask you about the next generation detectors, and so I want to 
get this point clarified, because you said that you will be 
able to deploy detectors early next year. But the committee has 
been briefed by Customs that this technology is not yet ready 
to be deployed because DHS has determined which spectroscopic 
technology is going to be used. So once the technology is 
chosen, these detectors must be produced, and that certainly is 
going to take some time. In addition, the next generation 
technology really isn't ready for deployment, and DHS has not 
determined what technology in fact is going to be used. So, 
therefore, DHS in all reality is years away from deploying the 
next generation sensors.
    Now, if this--and, by the way, it is also twice as 
expensive, and so they are not going to be able to actually 
deploy many detectors in the first place. For example, the 
total cost to deploy the current detectors is $496 million, and 
the cost to fully deploy next generation detectors is going to 
be somewhere in the area of $1.2 billion. And this is according 
to CBP. So how many next generation detectors are you going to 
actually be able to deploy with $80 million in your request?
    Mr. Oxford. Let me give you some recent information. As I 
was coming over here today, our Deputy Secretary was having the 
briefing on the acquisition strategy associated with these next 
generation systems. We have committed to the Secretary to have 
these systems start low rate production as early as May of 
2006. Now, Customs' concern is that these have not yet gone 
through the full test series. That test series begins in July.
    We have 10 separate contractors developing systems using 
this new technology. They will go through a very rigorous 
testing program, which to be honest has never been done before. 
Legacy systems have never been tested to the extremes that we 
are going to test these systems in July. Out of those test, we 
will do a down select of those 10 vendors to three, with one or 
two going into low rate production in 2006.
    The current limitation to these systems is the manufacturer 
of the sodium iodide crystals. This new capability is based on 
the availability of these crystals that give us the isotopic 
discrimination. We are capitalizing the manufacturing at one 
location and potentially coming up with a second source. 
Beginning in 2007, we would actually be able to go into a more 
robust deployment of the next generation system.
    The acquisition strategy we put in front of the Deputy 
today is still a hybrid acquisition approach in fiscal year 
2006, and the total request in 2006 was $125 million. The $80 
million you referred to was actually the 2005 appropriation. 
There is $125 million in the 2006 request. Right now our 
position is about $71 million of that will be dedicated to next 
generation systems.
    Mr. Langevin. Thank you, Mr. Chairman. I yield back.
    Chairman Linder. Chairman Cox.
    Mr. Cox. Thank you very much. Mr. Oxford, I wonder if I 
could dig into some of the questions that you are on the 
threshold of having to decide, not with respect to the 
organization within DHS, but actually what to do by way of 
deploying detection devices technology. Our witnesses from 
outside alerted us to two problems and I am sure you are 
thoroughly familiar with and have given great thought to.
    One is that we have roughly 380 ports of entry in the 
country, and even if we had ideal technology positioned at each 
of those ports a terrorist would presumably be clever enough to 
get a 4X4 and drive across a logging road in Minnesota to bring 
the needed radiological material in the country and wouldn't be 
foolish enough to drive through a major port of entry.
    Second, the existing technology, including everything on 
the verge of deployment, is simply inadequate to the task so 
that it is very easy to defeat if one takes measures that we 
might anticipate that terrorists would take if they were smart 
terrorists to shield their radiological material from 
detection. That raises at least one question you have got to 
decide.
    I appreciate your comment just on those problems and the 
nature of them, but the question I know you are wrestling with, 
among others, is, with respect to technology: Buy now so we can 
deploy immediately or invest now so that we can deploy later. 
Given the weaknesses in the defense that we will erect even if 
we were to deploy at all today, does it make more sense for us 
to invest the greater portion of our budget in better 
technology so that we can have a better rather than a poorest 
defense?
    Mr. Oxford. You are exactly right, Mr. Chairman. We 
struggle with these trades every day. The way we like to look 
at this is trying to balance coverage versus capability, and 
coverage does provide us some deterrent value. The whole 
layered defense strategy has got to complicate the terrorist's 
planning to the point where it really makes it hard for them to 
decide what to do, giving us additional operational 
opportunities to direct their activities. It is a tough trade 
across the land space, the air space, and the maritime 
corridors as well.
    I believe that the spectrum of RDD versus plutonium versus 
HUE argues that we need to have better systems than what we 
call the middle of the road, the spectroscopic systems that 
give us a lot of increased capability in that regard.
    Directly on the heels of the system, I would like to say 
that within 2 years I will be in here telling you that we have 
better systems to detect the shielded materials. We have 
several activities under way that will get us to the detection 
of shielded materials, and we would like to be going out and 
narrowing the field to develop those systems and produce them 
in about 2 years.
    We are not resting on just today. We have an active program 
to look at dual energy sources that give us the ability to 
interrogate high-Z materials, high density materials so we can 
know that there is shielding material in cargo. The next step 
then would be able to actually discriminate what that cargo is.
    The trade across the fixed income, as you have already 
suggested, is a very tough one, but we think we have got to put 
something in place as we build towards a more robust system.
    Mr. Cox. Finally, I hope that you will take to heart the 
concerns that have been expressed from a variety of 
perspectives about the importance of integrating intelligence 
with what we are doing, because keeping track of what 
terrorists are actually focused on, given that there are 
significantly fewer of them than there are people on earth and 
things to protect in our own country, is significantly better 
payback than investing our money in detection around the 
country on the theory that they might come any time, anywhere, 
any place.
    I would ask you whether or not there is a system in place 
in the Department of Homeland Security to help us make the 
trade-off from a money standpoint between intelligence and 
between overseas interdiction and covert efforts to identify 
terrorist capabilities and intentions on the one hand and 
investing in the deployment of technology on the other hand.
    I ask that because it seems to me there may be a fallacy 
built into the architecture of DNDO as conceived, and that is 
an a priori assumption that we are just going to deploy this 
technology, that that is the mission, whereas the real mission 
should be preventing nuclear terrorism. And if that were the 
mission, we might be thinking every day about is this dollar 
better spent putting a radiation portal monitor in place or 
better spent locating what terrorists are doing with 
radiological material outside our borders or attempting to 
bring it in.
    Mr. Oxford. And I think that is exactly what the 
concentrated effort within DNDO is going to bring to the table 
for the first time, the collective insights of the various 
departments that have been working these problems separately to 
sit down and figure out what the elements of this strategy need 
to be, is the deployment of a detection architecture 
domestically the necessary next step or is it just part of a 
broader strategy? People often look at the development of a 
strategy as a delaying tactic, but in this case I think it has 
got to be the way we explain, not only how we execute this 
problem but how we tie together the various elements of the 
operational community and the intelligence community to solve 
the problem. And until we have been able to espouse that theory 
and that strategy, we could have these kind of discussions for 
the next 5 years, and the panel that met yesterday has told you 
what that has gotten us so far. We have essentially talked 
about this for 8 years and have done very little.
    Mr. Cox. Well, Mr. Chairman, I feel very comfortable and 
confident knowing that Mr. Oxford with his experience in DOD 
and at NSC and the Air Force is in charge of tackling these 
problems. Thank you very much for your assistance today.
    Chairman Linder. Thank you, Mr. Oxford. You have been very 
helpful, and we are grateful. Thank you.
    Mr. Oxford. Thank you, Mr. Chairman.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
